<html>
<title> - PETRIFIED FOREST IN ARIZONA; QUINCENTENNIAL OF THE DISCOVERY OF FLORIDA; HARRY S TRUMAN NATIONAL HISTORIC SITE; HUDSON-FULTON-CHAMPLAIN COMMISSION; AND ROAMING HORSES IN CAPE LOOKOUT NATIONAL SEASHORE</title>
<body><pre>[Senate Hearing 108-739]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-739
    PETRIFIED FOREST IN ARIZONA; QUINCENTENNIAL OF THE DISCOVERY OF 
FLORIDA; HARRY S TRUMAN NATIONAL HISTORIC SITE; HUDSON-FULTON-CHAMPLAIN 
    COMMISSION; AND ROAMING HORSES IN CAPE LOOKOUT NATIONAL SEASHORE

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   on
                                     

                           S. 784                                S. 1311

                           S. 2499                               S. 2656

                           H.R. 2055


                                     

                               __________

                           SEPTEMBER 21, 2004


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
97-780                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     CRAIG THOMAS, Wyoming Chairman
                  DON NICKLES, Oklahoma Vice Chairman
BEN NIGHTHORSE CAMPBELL, Colorado    DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Carolina
CONRAD BURNS, Montana                BOB GRAHAM, Florida
GORDON SMITH, Oregon                 MARY L. LANDRIEU, Louisiana
JON KYL, Arizona                     EVAN BAYH, Indiana
                                     CHARLES E. SCHUMER, New York

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Clinton, Hon. Hillary Rodham, U.S. Senator from New York.........     2
Fitzgerald, Michael R., Owner, Twin Buttes Ranch, LLC, Holbrook, 
  AZ.............................................................    27
Gillette, David D., Ph.D., Department of Geology, Colbert Curator 
  of Paleontology, Museum of Northern Arizona, Flagstaff, AZ.....    30
Graham, Hon. Bob, U.S. Senator from Florida......................    15
Jones, Hon. Walter B., U.S. Representative from North Carolina...     9
Kyl, Hon. Jon, U.S. Senator from Arizona.........................     5
McCain, Hon. John, U.S. Senator from Arizona.....................     7
Pataki, Hon. George, Governor, New York State....................     5
Smith, Daniel P., Special Assistant to the Director, National 
  Park Service, Department of the Interior on:
    S. 784.......................................................    10
    S. 2656......................................................    13
    S. 2499......................................................    18
    S. 1311......................................................    19
    H.R. 2055....................................................    20
Talent, Hon. James M., U.S. Senator from Missouri................     7
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    37

                              Appendix II

Additional material submitted for the record.....................    41

 
    PETRIFIED FOREST IN ARIZONA; QUINCENTENNIAL OF THE DISCOVERY OF 
FLORIDA; HARRY S TRUMAN NATIONAL HISTORIC SITE; HUDSON-FULTON-CHAMPLAIN 
    COMMISSION; AND ROAMING HORSES IN CAPE LOOKOUT NATIONAL SEASHORE

                              ----------                              


                      TUESDAY, SEPTEMBER 21, 2004

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. Let us see if we can get started here. I 
want to welcome our witnesses for today's National Parks 
Subcommittee hearing.
    Our purpose is to hear testimony on four Senate bills and 
one House bill. They include:
    S. 784, to revise the boundary of Petrified Forest National 
Park in the State of Arizona, and for other purposes;
    S. 2656, to establish a national commission on the 
quincentennial of discovery of Florida by Ponce de Leon;
    S. 2499, to modify the boundary of the Harry S Truman 
National Historic Site in the State of Missouri;
    S. 1311, to establish the Hudson-Fulton-Champlain 400th 
commemoration commission, and for other purposes; and H.R. 
2055, to amend Public Law 89-366 to allow for an adjustment in 
the number of free roaming horses permitted in Cape Lookout.
    So that is what we have on our agenda.
    So I thank you all for being here. Keep your statements 
limited somewhat. They will all be in the record, and then we 
will have some questions. We will include your entire 
statement. So we look forward to hearing your testimony and the 
opportunity to discuss these bills.
    [The prepared statement of Senator Clinton and a letter 
from Governor Pataki follow:]

    Prepared Statement of Hon. Hillary Rodham Clinton, U.S. Senator 
                       From New York, on S. 1311

    Mr. Chairman, I want to open my testimony by extending my warmest 
thanks to you and to the ranking member, Senator Akaka, for including 
S. 1311 in today's hearing. I am grateful to have been given this 
opportunity to discuss my legislation before your subcommittee. Senator 
Schumer is a co-sponsor of the bill. It is also important at the outset 
to mention the efforts of Congressman Hinchey, my colleague from New 
York, who has introduced companion legislation, H.R. 2528, in the House 
of Representatives. I know he is heartened by your decision to hold 
this hearing, particularly in light of the action recently taken on 
H.R. 2528 by the House Committee on Government Reform. On July 21, 
2004, that committee's Subcommittee on Civil Service and Agency 
Organization forwarded H.R. 2528 to the full committee, and on the same 
day the full committee ordered the legislation to be reported, as 
amended.
    Let me also take a moment to thank you for the committee's past 
consideration of S. 1241, the Kate Mullany National Historic Site Act. 
As you know, following a hearing in your subcommittee and a full 
committee markup of S. 1241, the Senate passed the bill, as amended, on 
September 15, 2004.
    Mr. Chairman, I would like to emphasize that the Hudson-Fulton-
Champlain 400th Commemoration Commission Act has bipartisan support. As 
a notable example, I am submitting with my testimony a letter of 
support from Governor George Pataki of the State of New York. It is not 
surprising that there should be bipartisan support for this 
legislation, because the creation of the federal commission would help 
to celebrate some key events in the history of the great State of New 
York, the surrounding region, and North America as a whole. The three 
signal events I am referring to are the 400th anniversary (in 2009) of 
Henry Hudson's pioneering exploration, in the service of Dutch 
interests, of what is now known as the Hudson River; the 400th 
anniversary (also in 2009) of Samuel de Champlain's pioneering 
exploration of what is now known as Lake Champlain; and the 200th 
anniversary (in 2007) of Robert Fulton's inauguration of the successful 
commercial use of steam navigation by way of his historic voyage from 
New York City to Albany, New York. Each of these events is remarkable 
and together they demonstrate how vital they are to an understanding of 
the development of my State, the region, and, indeed, our Nation.
    The Hudson River extends from the western edge of New York City and 
the northeastern edge of New Jersey, past the U.S. Military Academy at 
West Point, by Albany, farther northward into the Adirondack Mountains. 
Hudson's 1609 exploration of the Hudson River, extending to a point 
near Albany, the capital city of New York, was followed by the 
establishment of Fort Orange, a Dutch, and later, English settlement in 
the area. Almost two hundred years after Hudson's voyage, Robert 
Fulton's introduction of successful commercial steam navigation on the 
Hudson River helped make that waterway a vital commercial highway and 
engine of development for the state and the region. The river remains a 
natural wonder that is extremely rich in history, outdoors life, 
wildlife, and artistic inspiration.
    In 1609, the same year that Henry Hudson, an Englishman, sailed 
north on the Hudson River, Samuel de Champlain traveled in the company 
of Native Americans and arrived at Lake Champlain. Lake Champlain 
itself is shared by two states--New York and Vermont. In addition to 
its enduring natural grandeur, it has contributed renowned chapters to 
the military history of the Nation and served as a passageway to 
Canada, our neighbor, trading partner, and ally to the north.
    In keeping with the multilayered importance of these anniversaries, 
the proposed membership of the federal Hudson-Fulton-Champlain 400th 
Commemoration Commission is designed to bring together people with a 
wide variety of expertise and knowledge, including employees of the 
National Park Service. As envisioned in S. 1311, the commission would 
be composed of 31 members. Three members would be appointed after 
consideration of recommendations by the Governors of New York, Vermont 
and New Jersey. Thirteen members would be appointed after consideration 
of recommendations by the members of the House of Representatives whose 
districts encompass the Hudson River Valley and Champlain Valley. Six 
members would be appointed after consideration of the recommendations 
from the members of the Senate from New York, New Jersey, and Vermont. 
Two members would be employees of the National Park Service, of whom 
one would be the Director of the National Park Service (or a designee), 
and one would be an employee of the National Park Service having 
relevant experience. Another member of the commission appointed by the 
Secretary would be an individual knowledgeable of the Hudson River 
Valley National Heritage Area. And six members of the commission 
appointed by the Secretary would have an interest in, support for, and 
expertise appropriate to, the commemoration.
    The purpose of the federal Hudson-Fulton-Champlain 400th 
Commemoration Commission would be to: (1) ensure a suitable national 
observance of the Henry Hudson, Robert Fulton, and Samuel de Champlain 
anniversaries through cooperation with and assistance to the programs 
and activities of New York, New Jersey, and Vermont; (2) assist in the 
appropriate development of heritage tourism and economic benefits to 
the United States; (3) assist in ensuring that Hudson-Fulton-Champlain 
observances provide an excellent visitor experience and beneficial 
interaction between visitors and the natural and cultural resources of 
the New York, New Jersey, and Vermont sites; (4) assist in ensuring 
that Hudson-Fulton-Champlain observances are inclusive and 
appropriately recognize the diverse Hudson River and Lake Champlain 
communities that developed over four centuries; (5) facilitate 
international involvement in the Hudson-Fulton-Champlain observances; 
and (6) support and facilitate marketing efforts for a commemorative 
coin, a commemorative stamp, and related activities for the Hudson-
Fulton-Champlain 2009 observances.
    To carry out these responsibilities, the federal Hudson-Fulton-
Champlain 400th Commemoration Commission would be required to: (1) 
plan, develop, and execute programs and activities appropriate to 
commemorate the three anniversaries; (2) facilitate Hudson-Fulton-
Champlain-related activities throughout the United States; (3) 
coordinate its activities with State commemoration commissions and 
appropriate Federal Government agencies, including the Departments of 
Agriculture, Defense, State, and Transportation, the National Park 
Service with respect to the Hudson River Valley National Heritage Area, 
and the American Heritage Rivers Initiative Interagency Committee 
established by Executive Order 13061, dated September 11, 1997; (4) 
encourage civic, patriotic, historical, educational, religious, 
economic, and other organizations throughout the United States to 
organize and participate in anniversary activities to expand the 
understanding and appreciation of the significance of the voyages of 
Henry Hudson, Robert Fulton, and Samuel de Champlain; (5) provide 
technical assistance to States, localities, and nonprofit organizations 
to further the commemoration; (6) coordinate and facilitate for the 
public scholarly research on, publication about, and interpretation of, 
the voyages of Henry Hudson, Robert Fulton, and Samuel de Champlain; 
and (7) ensure that the Hudson-Fulton-Champlain anniversaries provide a 
lasting legacy and long-term public benefit by assisting in the 
development of appropriate programs and facilities.
    Thus, the federal Hudson-Fulton-Champlain 400th Commemoration 
Commission would coordinate educational, cultural and historical 
projects while cooperating and assisting the programs and activities 
conceived by New York, New Jersey and Vermont. The commission, as a 
federal entity, will naturally play a vital role in facilitating 
national and international celebration efforts, and helping to ensure 
the observances are inclusive and recognize the wonderful diversity of 
the communities that have inhabited the Hudson River and Lake Champlain 
regions over the last four hundred years. The commission would also 
play an important role in working with state commissions to help foster 
appropriate capital improvements that will help to attract heritage 
tourists from across the Nation and elsewhere.
    Since a vital element of a successful commemoration is the 
participation of the state commissions mentioned in the legislation, I 
am pleased to let you know that the states of New York and Vermont have 
already created state quadricentennial commissions and New York's 
Hudson River Valley National Heritage Area, referenced in the bill, has 
already made a tremendous contribution to fostering heritage tourism, 
making it a significant element in the area economy. In 2002, Governor 
George Pataki of the State of New York signed legislation creating the 
Hudson-Fulton-Champlain Quadricentennial Commission. Governor Pataki 
said in his announcement: ``These legendary figures played a key role 
in the history of New York and this important new commission will play 
a key role in helping us celebrate and honor their legacies . . . . 
These upcoming celebrations will help energize communities all along 
the Hudson River and Lake Champlain . . . .
    New York's Hudson-Fulton-Champlain Quadricentennial Commission was 
established with twenty-one members, including members appointed by the 
governor and elected officials of the state legislature, and members 
representative of relevant geographic areas. As set forth in Governor 
Pataki's announcement, the state commission is responsible for, among 
other things: (1) seeking funding from private individuals, foundations 
and corporations to support capital improvements, preservation and 
conservation needs associated with the commemoration; (2) making 
existing cultural institutions, museums and libraries the focus of the 
commemoration; (3) coordinating forums to seek public ideas for the 
commemoration; (4) coordinating civic, educational, cultural and 
heritage organizations to develop public interest and involvement in 
the planning and development of the commemoration; (5) promoting and 
encouraging educational outreach programs, media and technology 
including electronic communications to achieve national and 
international impact; (6) coordinating the planning of commemorative 
events for all communities along the Hudson River, Lake Champlain, and 
elsewhere; (7) inviting other interested states and nations to 
participate; (8) coordinating and promoting conferences, seminars and 
conventions in Hudson River and Lake Champlain communities using the 
quadricentennial as an attraction and theme; and (9) coordinating and 
cooperating with local, state and federal entities, including any 
federal quadricentennial commission.
    Likewise, in 2003 Governor James Douglas of the State of Vermont 
established the Lake Champlain Quadricentennial Commission, with up to 
26 members. The commission is charged with the responsibility to 
advise, assist and support regarding the commemoration of the 400th 
anniversary of Samuel de Champlain exploration of Lake Champlain. The 
creation of the New York and Vermont state commissions is an essential 
step in the commemoration effort.
    The federal-state cooperation envisioned by S. 1311 has an 
important precedent. Congress has acted before to help recognize the 
significance of the Hudson and Champlain commemorations by means of the 
creation of a federal commission. In 1958, President Dwight D. 
Eisenhower signed legislation (Public Law 85-614) establishing a 350th 
anniversary ``Hudson-Champlain Celebration Commission.'' According to 
that statute, the commission was designed to ``develop and execute 
plans for the celebration in 1959 of the three hundred and fiftieth 
anniversary of the exploratory voyages in 1609 of Henry Hudson and 
Samuel de Champlain which signaled the beginning of settlements whose 
influence on our history, culture, law, and commerce extend through 
generations to the present day, settlements whose significance is 
recognized not only by their parent countries, sister nations across 
the sea, but by untold others who have come from foreign lands to find 
in America a new homeland.''
    The year 1959 was also marked by the passage of S. J. Res. 59 
(Public Law 86-68) and the issuance of a presidential proclamation, 
according to the Congressional Research Service. The joint resolution 
noted the significance of the commemorations and called on the 
President of the United States to ``issue a proclamation designating 
1959 as the year of the Hudson-Champlain Celebrations, and calling upon 
all citizens to join in commemorating the explorations carried out by 
these heroic men . . . .'' By proclamation issued June 25, 1959, 
President Eisenhower designated 1959 as the year of the Hudson-
Champlain Celebrations and invited the citizens of the United States, 
and the ``schools, patriotic and historical societies, and civic and 
religious organizations to participate'' in the commemorations.
    The Final Report of the Hudson-Champlain Celebration Commission to 
the President and Congress of the United States (``Final Report'') 
describes the celebration period's rousing success. ``From New York 
City up through the Hudson and Champlain Valleys as far as Canada and 
then into Vermont, with a nod of recognition from New Jersey and 
counties of New York State which lie far to the west of the Hudson and 
Champlain areas, 1959 was a year of commemoration and celebration . . . 
. The character of the festivities ranged all the way from educational 
and religious projects, exhibitions of Dutch and French art, and 
continuing professional performances of music, drama and ballet to 
parades, waterama, fireworks, pageants, canoecades, historic re-
enactments and exhibitions of the armed might of the United States.'' 
The report also describes the involvement of the governments of The 
Netherlands, France, Canada and Great Britain, which no doubt served to 
bring allies in North America and Europe even closer to the United 
States during that period when the Cold War was a daily fact of life. 
The Final Report also describes an even earlier celebration laying the 
foundation for this legislation. Festivities were held in 1909 as part 
of the Champlain Tercentenary in the Champlain Valley and the Hudson-
Fulton celebrations in New York City.
    Mr. Chairman, there are many significant voyages of exploration 
that led to the development of our Nation, but among the most 
significant are those of Hudson and Champlain. There are many acts of 
invention that have contributed to unleashing the full potential of 
America, and among the most significant is the contribution of Robert 
Fulton. These are some of the reasons I feel privileged to represent 
the State of New York. The history of New York and its waterways 
stretch back before the dawn of this great Nation. Native peoples knew 
the beauty and mystery and plenitude of this region. Those who arrived 
later--among them Hudson, Champlain, and Fulton--plied the magnificent 
rivers and lakes of New York in voyages of exploration. Crucial 
episodes in the American Revolution and other battles took place in 
this region. The story of these explorers and the waters they traveled 
upon are a part of the continuing story of New York, Vermont, New 
Jersey, and the Nation, because that determined spirit of exploration, 
discovery and invention still thrives today, and is one of the reasons 
our Nation is unique among the Nations of the world.
    Mr. Chairman, that is why it is so important to establish the 
Hudson-Fulton-Champlain 400th Commemoration Commission. The federal-
state cooperation that took place nearly a half-century ago is evidence 
that the collaboration envisioned by S. 1311 has a crucial role to play 
in the proper commemoration of the significance of these events. I 
thank you for the opportunity to provide this testimony in support of 
S. 1311 and I look forward to working with you and Senator Akaka to 
turn this legislation into a reality. Thank you.
                               __________
                                         State of New York,
                                    Albany, NY, September 17, 2004.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.

Hon. Daniel K. Akaka,
Ranking Member, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Chairman Thomas and Ranking Member Akaka: It is my 
understanding that the Subcommittee on National Parks will soon 
consider legislation to establish the Hudson-Fulton-Champlain 400th 
Commemoration Commission. S. 1311 seeks to celebrate and commemorate 
the anniversaries of events of major historic importance along these 
internationally significant waterways. I write in support of this 
legislation.
    The discovery of the Hudson River in 1609 by Englishman Henry 
Hudson, while in the service of the Netherlands, is a key moment in the 
history of New York. His exploratory voyage up the Hudson provided the 
Western world with its first view of the wonders of the New World and, 
in large measure, with the limitless potential of North America. In the 
same year, French explorer Samuel de Champlain was the first European 
to set eyes upon the lake that now bears his name. Since the 
tricentennial of Hudson's exploration in 1909, when its commemoration 
was joined with that of the centennial of Robert Fulton's voyage up the 
Hudson on the steamship Clearmont, both events have generally been 
celebrated together.
    In order to mark the significance of the 400th anniversary of these 
important events, New York State passed legislation in 2002 to create a 
statewide, commission. This commission will plan and develop the 
celebrations of these events by commemorating the rich heritage of the 
Hudson River and Champlain corridors, and the impact of these 
discoveries on our history, culture, and commerce.
    At the federal level, S. 1311 would recognize the national and 
international significance of the discovery of the Hudson-Champlain 
Waterways, and the role these waters played in the birth and 
development of our nation, and the entrepreneurial spirit that 
continues to be a hallmark of our national identity. The multi-state 
commission envisioned by the bill would assist the states and 
communities in the region by coordinating events and observances across 
the region, and by providing federal recognition and resources to 
programs designed to commemorate these important discoveries and 
historical and cultural heritage associated with them.
    I wholeheartedly support the bill and urge its swift passage.
            Very truly yours,
                                             George Pataki,
                                                          Governor.

    Senator Thomas. Senator Kyl, would you like to comment?

      STATEMENT OF HON. JON KYL, U.S. SENATOR FROM ARIZONA

    Senator Kyl. Thank you, Mr. Chairman, and thank you very 
much for holding this hearing.
    I will be exceedingly brief, but just to note that the 
first I believe is the Petrified Forest National Park Expansion 
Act. Basically only 6 miles of the 22-mile Chinle Escarpment 
that carries the Petrified Forest are currently in the park and 
what this legislation would do is significantly expand the land 
that would comprise the park.
    By the way, the bill is supported by the people in the 
area, by the Federal Government, by the State government, and 
so on.
    There is one change. The one thing that I would like to 
draw your attention to, Mr. Chairman, is there were concerns in 
one area raised by the administration. They were legitimate. 
The substitute that I will offer at the markup addresses those 
concerns. It has to do with the fact that we have a unique 
provision in our State constitution that does not permit the 
exchange of State lands with Federal lands. Our State trust 
lands have to be sold at auction to the highest bidder. As a 
result, this language will allow the State and the National 
Park Service to exercise the appropriate means available under 
the law to acquire the land at the time of acquisition and 
allow for a memorandum of agreement between the State and the 
NPS for management of the State trust lands included within the 
park boundary until the Park Service and the State can agree on 
the terms of acquisition. So to my knowledge, that is the only 
issue to be resolved and I think that will resolve it, and we 
will try to accomplish that at the time that we mark the bill 
up.
    But I want to thank you and I want to thank all the people 
from Arizona who are here in support of this legislation.
    Mr. Chairman, might I ask too that my full statement be 
inserted in the record? I also note that Senator McCain, a 
cosponsor of the legislation, also has a statement, and I would 
like to submit that for the record as well.
    Senator Thomas. It will be included in the record.
    [The prepared statements of Senator Kyl and Senator McCain 
follow:]

 Prepared Statement of Hon. Jon Kyl, U.S. Senator From Arizona, on S. 
                                  784

    Mr. Chairman, thank you for holding this hearing on S. 784, the 
Petrified Forest National Park Expansion Act of 2004. This bill, which 
I am co-sponsoring with Senator McCain, would expansion the park to 
include some of the most unique natural and cultural resources 
contained anywhere in the world.
    The Petrified Forest National Park is something of an anomaly among 
national parks. Designated as a National Monument in 1906 to protect 
the large petrified tree trunks that once towered over Triassic 
swamplands, it may not quite fit the popular image of a national park. 
Nevertheless, it is, a treasure, worthy of National Park status for the 
unique educational experience it provides its visitors. No where else 
can you glimpse the fossil remains of an ancient wilderness ecosystem, 
as it existed 30 million years ago.
    Today we know that petrified wood is only a part of the globally 
significant record contained in the rock formation commonly known as 
the ``Chinle Escarpment'' which cuts across the park. Science has 
revealed numerous paleontological deposits and nationally significant 
archeological sites, including ancient Pueblo cultural sites. The 
Chinle Escarpment is now known to constitute the best record of 
Triassic period terrestrial ecosystems found anywhere in the world. 
Currently, however, only six miles of the 22-mile escarpment are within 
the park boundaries.
    S. 784 would expand the park to include an additional 120,000 
acres. These acres include the east and west portions of the Chinle 
Escarpment which are believed to include additional globally 
significant paleontological deposits and potentially nationally 
significant archeological sites The proposed expansion areas are 
checkerboarded federal, state, and private lands.
    Although a large addition to the federal land mass, this expansion, 
like the park itself, is unique. The expansion permitted by S. 784 is 
not just about adding land to the park. S. 784 is needed to protect 
these resources, they are seriously threatened by illegal activities 
occurring in the region, such as the theft of petrified wood and 
fossils, pot hunting, vandalism to petroglyph sites and the 
environmental degradation caused by mineral exploration.
    This expansion has been in the works for nearly 10 years. It is 
supported by the private landowners, local communities, scientific and 
research institutions, state tourism agencies, and environmental groups 
such as the National Parks Conservation Association.
    Mr. Chairman, this bill may unlock answers to profound questions 
about our earth's history and the changing environment. This bill is 
good for the state of Arizona and the nation. I plan to work with my 
colleagues to ensure that we pass it.

                               __________
  Prepared Statement of Hon. John McCain, U.S. Senator From Arizona, 
                               on S. 784

    Mr. Chairman, thank you for holding this hearing today on a number 
of important pieces of legislation, including S. 784, the Petrified 
Forest National Park Boundary Expansion Act, which I introduced with 
Senator Kyl. Support for this proposed boundary expansion is 
extraordinary, from the local community of Holbrook, scientific and 
research institutions, state tourism agencies, and environmental 
groups, including the National Parks Conservation Association (NPCA).
    As this Subcommittee is well aware, the Petrified Forest National 
Park is a national treasure among the nation's parks, renowned for its 
large concentration of highly colored petrified wood, fossilized 
remains, and spectacular landscapes. Upon visiting this Park, one is 
quick to recognize its wealth of scenic, scientific, and historical 
value. Preserved deposits of petrified wood and related fossils are 
among the most valuable representations of Triassic-period terrestrial 
ecosystems in the world. These natural formations were deposited more 
than 220 million years ago. Scenic vistas, designated wilderness areas, 
and other historically significant sites of pictographs and Native 
American ruins are added dimensions of the Park.
    The Petrified Forest was originally designated as a National 
Monument by former President Theodore Roosevelt in 1906 to protect the 
important natural and cultural resources of the area. It was designated 
as a National Park in 1962. While several boundary adjustments have 
been made, a significant portion of unprotected resources remain in 
outlying areas adjacent to the Park.
    Increasing reports of theft and vandalism around the area have 
activated Park authorities, local communities, and other interested 
entities to seek additional protections through a proposed boundary 
expansion. It has been estimated that visitors to the Park steal about 
12 tons of petrified wood every year. Reports of destruction to 
archaeological sites and grave sites have also been documented. Based 
on these continuing threats to the Park's resources, the National Parks 
Conservation Association listed the Petrified Forest National Park on 
its list of Top Ten Most Endangered Parks in 2000.
    A proposal to expand the Park's boundaries was recommended in the 
Park's General Management Plan in 1992, in response to concerns about 
the long-term protection needs of globally significant resources and 
the Park's viewshed in nearby areas. For example, one of the most 
concentrated deposits of petrified wood is found within the Chinle 
Escarpment, of which only thirty percent is included within the current 
Park boundaries.
    S. 784 would revise the boundary of the Park to include 
approximately 130,000 acres, continue current grazing rights on lands 
transferred to the Park, and within three years, authorize the 
development of a plan, in accordance with Federal and State law, for 
acquisition of State land or interests in State lands within the Park's 
revised boundary. Since introducing the bill last year, we have been 
seeking the input of interested parties to ensure that the Park and all 
its wonderful resources are protected for future generations. I want to 
thank the major landowners and other witnesses today for their 
contributions to this effort.
    Again, I thank the Chairman and the Subcommittee members and hope 
this measure will be approved by the full Committee as soon as 
possible.

    Senator Thomas. Thank you very much.
    Senator.

          STATEMENT OF HON. JIM TALENT, U.S. SENATOR 
                         FROM MISSOURI

    Senator Talent. I thank the chairman.
    It is good to see Mr. Jones again. I am looking forward to 
his testimony.
    Again, I will also be brief about the Truman Farm Home 
Expansion Act, which we have on the calendar. I am grateful to 
the chairman for scheduling a hearing on that. I hope we can 
put it out and pass it. I cannot imagine anything less 
controversial.
    The former Truman Farm home, where Harry Truman worked in 
the early part of the last century, is located in Grandview in 
eastern Jackson County, Missouri. It is an historic site, about 
5 acres. And because of encroachment of commercial development, 
wear and tear on the house, we need to expand it by about 
another 5 acres. This will increase the educational 
opportunities for people who visit, protect the homestead from 
being threatened by commercial development, and open up a lot 
of other opportunities to really expand people's opportunity to 
enjoy and learn from the site.
    So I am, again, grateful that you scheduled it, Mr. 
Chairman, and hope we can put it out so that the people of 
Missouri and, in fact, of the whole country can enjoy this 
opportunity to see where, according to Harry Truman's mother, 
he got common sense, by working on that farm. Thank you, Mr. 
Chairman.
    I have a full statement to submit for the record.
    Senator Thomas. It will be included.
    [The prepared statement of Senator Talent follows:]
 Prepared Statement of Hon. James M. Talent, U.S. Senator From Missouri
    Chairman Thomas, thank you for holding this hearing today and thank 
you for including a bill that I introduced, the Truman Farm Home 
Expansion Act, to expand the boundaries of the Harry S Truman Farm Home 
in Grandview.
    The additional acreage to the site will be used to build a new 
visitors center and preserve the historic integrity of the farm by 
preventing additional commercial encroachment. This bill will permit 
the National Park Service to ensure the protection of the Farm Home and 
the historic grounds by removing non-historic uses. It will also offer 
increased educational opportunities to school children, residents, and 
visitors alike that are not currently available at this site.
    The Truman Farm Home is a very special place to the people of 
Grandview and the Greater Kansas City area. It is here that Harry S 
Truman's mother said he got his common sense.
    Truman was 22 when his father called him to work on the Young and 
Truman farm in 1906. In describing his duties Mr. Truman said he, ``. . 
. Plowed, sowed, reaped, milked cows, fed hogs, doctored horses, bailed 
[sic] hay, and did everything there was to do on a six hundred acre 
farm with my father and my brother.''
    Currently the Truman Farm is located on a 5.2 acre area. S. 2499 
would nearly double the size of the Harry S Truman Historic Site by 
giving the government the authority to purchase approximately 5-acres 
of land on the south side of the property. This area is basically 
undeveloped except for a small retail paint store located at the west 
end and fronting on Blue Ridge Boulevard. The proposed 5-acre strip is 
the only undeveloped land that remains of the original 600-acre Truman 
Farm.
    The use of the existing paint store as a visitor contact center 
will permit the park to eliminate the administrative use of the Truman 
Farm Home's screened-in side porch as a visitor welcome point and sales 
area. This will restore the historic integrity to the home, while 
removing the impact of the wear and tear on the historic structure.
    Since the existing portion of the Truman Farm is so small, there 
isn't adequate space to plant vegetation that would have the potential 
of screening existing commercial development. Sen. Talent's bill would 
give the park space to provide for those plantings without encroaching 
on the home. Eliminating views of commercial development, which 
surrounds the farm site, would help visitors better understand and 
appreciate the rural nature of the farm.
    I believe this preservation is needed to ensure that future 
generations can gain an understanding of the lives of our Presidents. I 
am hopeful that this committee will act on this bill and it can be 
passed by the Senate before we adjourn this year.

              STATEMENT OF HON. WALTER B. JONES, 
            U.S. REPRESENTATIVE FROM NORTH CAROLINA

    Mr. Jones. Mr. Chairman, I thank you and I thank the 
committee members for this opportunity to speak briefly on H.R. 
2055.
    For 3 centuries, a herd of wild Spanish horses has occupied 
the Shackleford Banks, a barrier island in my district that is 
part of Cape Lookout National Seashore. H.R. 2055 would improve 
existing law by updating the science-based parameters that 
govern management of the horses.
    The bill is based on the research of two world-renowned 
genetic scientists who spent decades studying the herds, Dr. 
Dan Rubenstein of Princeton University and Dr. Gus Cothran of 
the University of Kentucky.
    This bill is supported by the National Park Service. We 
have worked together for over 8 years now, and this bill 
itself, all it is doing is just to ensure the future of the 
herds based on science.
    [The prepared statement of Mr. Jones follows:]

    Prepared Statement of Hon. Walter B. Jones, U.S. Representative 
                   From North Carolina, on H.R. 2055

    Mr. Chairman, thank you for scheduling this hearing on H.R. 2055--a 
bill to adjust the number of free roaming horsed permitted on 
Shackleford Banks in the Cape Lookout National Seashore. Shackleford 
Banks is a barrier island off the coast of North Carolina that has been 
home to a herd of wild horses for over three centuries. In fact, 
experts believe the herd descended from Spanish stallions that were 
shipwrecked on the island during colonial times.
    Over the years, the Shackleford horses have become an integral part 
of the natural and cultural fabric of Eastern North Carolina. They are 
treasured by the local community and adored by the visitors who come 
from around the world to see them.
    To protect these beautiful creatures, in 1997 I introduced the 
Shackleford Banks Wild Horses Protection Act which the President later 
signed into law. The Act directed the Department of the Interior to 
enter into an agreement with a non-profit group--the Foundation for 
Shackleford Horses--to manage the herd. It also required the Department 
to allow a herd of 100 free-roaming horses in the Seashore, and it set 
out terms under which horses could be removed, including a prohibition 
on removal ``unless the number of horses . . . exceeds 110.''
    As the National Park Service and the Foundation began to implement 
the Act, disagreement erupted over the law's requirements on the size 
of the herd. The Park Service interpreted the Act to mean that the 
herd's population should be kept between 100 and 110. However, as the 
author of the legislation, I can tell you this interpretation was 
inconsistent with Congressional intent--which was to allow the herd to 
hover above 110.
    The Park Service's interpretation also conflicted with the 
established scientific consensus on the size of the herd. Studies by 
world-renowned genetic scientists Dr. Daniel Rubenstein of Princeton 
University, and Dr. Gus Cothran of the University of Kentucky, confirm 
that in order to maintain the herd's long-term viability, its optimum 
size is around 120 animals. The experts also agree that the population 
should not dip below 110 and that it should be allowed to expand 
periodically to numbers at or above 130 in order to sustain the proper 
genetic diversity in the herd. It's important to note that these 
numbers are well within the island's carrying capacity.
    After years of disagreement on the issue of herd size, the Park 
Service met in the fall of 2002 with the Foundation for Shackleford 
Horses, Dr. Rubenstein, Dr. Cothran and other stakeholders to find 
middle ground. After two days of meetings, the parties emerged with an 
agreement that largely minors the scientific understanding of how the 
horses should be managed.
    H.R. 2055 seeks to codify this scientific consensus into law. It 
would allow a herd of not less than 110 free roaming horses, with a 
target population of between 120 and 130 free roaming horses.'' It 
would also clear up confusion on when horses can be removed from the 
island by mandating that removal can only occur if ``carried out as 
part of a plan to maintain the viability of the herd.''
    Mr. Chairman, this non-controversial legislation is supported by 
the Park Service, the scientific experts, and the local community. It 
is a legislative fix based on sound science, and I urge the 
Subcommittee to support it.

    Senator Thomas. All right, sir. Thank you very much.
    I might say we have some extra wild horses in Wyoming, if 
you are interested.
    [Laughter.]
    Mr. Jones. Senator, I know my colleague, Ms. Cubin, and we 
have had several discussions about our horses and your horses 
as well.
    Senator Thomas. Ours are not used to the water, however.
    Thank you very much, sir. We appreciate your being here.
    Mr. Jones. I appreciate it. Thank you.
    Senator Thomas. We are ready for our first panel then. It 
will be Mr. Daniel Smith, Special Assistant to the Director, 
National Park Service, the Department of the Interior. Welcome, 
Mr. Smith.

    STATEMENT OF P. DANIEL SMITH, SPECIAL ASSISTANT TO THE 
 DIRECTOR, NATIONAL PARK SERVICE, DEPARTMENT OF THE INTERIOR, 
                        REGARDING S. 784

    Mr. Smith. Mr. Chairman, thank you. I will try to be brief, 
and I will go through all these bills in hopefully short order.
    Mr. Chairman, the first bill is the Department of the 
Interior's views on S. 784, a bill to revise the boundary of 
Petrified Forest National Park in the State of Arizona.
    The Department supports S. 784, and on June 15 of this 
year, we testified in support of H.R. 1630, which as introduced 
in the House was identical to S. 784.
    S. 784 does not include the number of acres, identify which 
acres are proposed for expansion, or cite a specific map 
reference. However, the NPS, in consultation with BLM, has 
developed a map that was incorporated in H.R. 1630 at markup. 
We suggest that S. 784 be amended to reference the same map.
    Much of the proposed expansion land ownership is best 
described as a checkerboard, which is common in western lands 
bordering railroad corridors. The 128,000-acre addition 
includes Federally-owned, BLM-managed lands, about 14,500 
acres; privately owned lands, about 79,000 acres; and lands 
owned by the State of Arizona, about 34,500 acres.
    Petrified Forest National Park was established in 1906 and 
has been expanded several times to preserve and protect the 
Petrified Forest, its outstanding paleontological sites and 
specimens, its associated ecosystem and specimens, cultural and 
historic resources, and scenic and wilderness values for 
present and future generations. This is a world-class site, Mr. 
Chairman.
    In addition to including the acreage and reference map, we 
would suggest two other amendments, which I think Senator Kyl 
alluded to. These are amendments that were included in H.R. 
1630, and it involves an MOU with the State to deal with the 
possible purchase of the State-owned lands at a later date and 
management of those lands until that can be accomplished.
    That concludes my testimony on S. 784.
    [The prepared statement of Mr. Jones regarding S. 784 
follows:]

 Prepared Statement of A. Durand Jones, Deputy Director, National Park 
             Service, Department of the Interior, on S. 784

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 784, a bill to revise the boundary of Petrified 
Forest National Park in the State of Arizona. We thank Senators McCain 
and Kyl for their interest and support for including and protecting 
world-class paleontological and archeological resources as well as 
extensive petroglyph sites in Petrified Forest National Park. 
Congressman Renzi and the other members of the House delegation have 
introduced companion legislation, H.R. 1630.
    The Department supports S. 784. On June 15, 2004, the Department 
also testified in support of H.R. 1630, which as introduced was 
identical to S. 784.
    S. 784 would expand the boundary of Petrified Forest National Park 
and authorize the Secretary to acquire lands within the boundary 
expansion from a willing seller by purchase, donation, or exchange. 
Within two years of enactment, the Secretary would be directed to 
develop a plan for the acquisition of State land or interests in State 
lands. The bill also would direct the Secretary to transfer to the NPS, 
administrative jurisdiction over other federally owned lands within the 
boundary expansion and specifically would allow . grazing to continue 
on lands where grazing presently exists. And finally, S. 784 would 
require that the park's General Management Plan (GMP) be amended within 
three years after this bill is enacted to address the use and 
management of additional lands.
    S. 784 does not include the number of acres, identify which acres 
are proposed for expansion, or cite a specific map reference. However, 
the NPS, in consultation with the BLM, has developed a map that was 
incorporated in H.R. 1630 at markup. We suggest that S. 784 be amended 
to reference the same map entitled ``Proposed Boundary Adjustments, 
Petrified Forest National Park'', numbered 110/80,044, and dated July 
2004. This map would result in a total proposed expansion of 
approximately 128,000 acres.
    Much of the proposed expansion landownership is best described as a 
checkerboard, which is common in western lands bordering railroad 
corridors. The 128,000 acres includes federally owned BLM-managed 
lands, privately owned lands, and lands owned by the State of Arizona.
    Under the bill, approximately 14,500 acres of BLM-managed public 
land would be transferred to the National Park Service. Approximately 
79,500 acres are privately owned. There are four major private 
landowners within this area and each has expressed interest in selling, 
exchanging, or donating their lands or interests. Because the proposed 
boundary expansion has been discussed for more than ten years, some of 
the landowners are losing interest while others are facing economic 
hardship and may be forced to sell to other interests if the expansion 
is not completed soon. Much of the private lands adjacent to the park 
have been managed as part of large cattle ranches for the past 120 
years, however, this historic use of the land that has preserved the 
scenic views seen from the park is starting to change. According to the 
park's 1993 GMP, new land uses occurring within the past 30 to 40 years 
include large-scale, mechanized petrified wood mining on private lands 
(with no reclamation efforts)--and subdivision of square-mile sections 
into 40-acre ranchettes. Pot hunting and vandalism continue regularly, 
and the costs for patrolling are beyond the ability of most private 
owners to manage.
    The State of Arizona owns approximately 34,500 acres in the 
proposed expansion. In support of the bill, the State has closed these 
lands to surface and sub-surface applications, mineral location, and 
prospecting permit application. This closure was originally done on 
March 4, 1991 and was just renewed on May 26, 2004.
    We should note that two issues exist concerning the state-owned 
lands authorized for acquisition. First, State law prohibits lands to 
be donated. Second, it is our understanding that the Arizona Supreme 
Court has determined that the Arizona Constitution prohibits the 
disposal of certain state land except through auction to the highest 
and best bidder. We are told there is an effort to amend this provision 
in the Arizona Constitution on the November ballot. Given these 
remaining issues, we would have to await a determination on how the 
citizens of Arizona and their representatives would recommend 
proceeding should S. 784 be enacted.
    The average cost per acre in the proposed new boundary, based on 
appraisals completed by the Department of the Interior, is between $105 
and $175. Recurring costs for the management of the new lands would be 
approximately $690,000, which includes planning, and compliance, 
resource inventory and monitoring, resource protection, and 
maintenance. We also expect to incur approximately $625,000 in non-
recurring costs for new fencing and the purchase and installation of 
site sensors to remotely monitor lands for illegal activities. Funding 
would be subject to NPS priorities and the availability of 
appropriations.
    Petrified Forest National Park was established in 1906 and has been 
expanded several times to preserve and protect the Petrified Forest, 
its outstanding paleontological sites and specimens, its associated 
ecosystems and specimens, cultural and historic resources and scenic 
and wilderness values for present and future generations. The Petrified 
Forest is located in the stark and beautiful high desert environment of 
badlands, dry washes, and sagebrush of northeastern Arizona. Where 200 
million years ago there were lush green forests, rich in vegetation and 
trees hundreds of feet high supporting a variety of life, and where 
dinosaurs once roamed, there are now vistas broken only by distant 
mesas and the remnants of that forest and life, preserved by forces of 
nature in the shape of petrified wood and delicate fossils. In this 
stark and remarkable place, the remains of the oldest known dinosaur on 
earth were discovered in 1985.
    The park contains some of the best fossil records of late Triassic 
ecosystems in the world, and nowhere else can one find the combination 
of world-class paleontology and nationally significant archaeological 
sites that one finds here. For the past 150 years, people have visited, 
researched and sometimes vandalized and looted these resources. The 
creation of the park and subsequent expansions has diminished the 
threat.
    However, historic research by institutions such as the American 
Museum of Natural History, The Smithsonian, and the University of 
California at Berkeley has shown that the areas outside the park 
contain an even richer record of Triassic fossils than the areas within 
the park. The proposed boundary expansion would bring into the 
protection of the park, the following resources:

  <bullet> the Chinle Escarpment, which cuts across the park from East 
        to West and includes resources that contain in their rock 
        layers the story of the world's only know complete Triassic era 
        ecosystem--a remarkably rich concentration of information about 
        a world that vanished more than 200 million years ago;
  <bullet> critical riparian habitat along the Puerco River, central to 
        ancient human history of the region and important for the 
        protection of plants and wildlife;
  <bullet> the Rainbow Forest Badlands, significant because it contains 
        fossil-bearing strata that is a continuation of that protected 
        within the park;
  <bullet> the Dead Wash Petroglyphs parcel, containing a wide variety 
        of paleontological features, archeological resources and 
        riparian habitat critical to the wildlife and water quality of 
        the region;
  <bullet> the Wallace Tank Ruins parcel, containing a large ruin that 
        may have played an important role in the closing phases of the 
        area's prehistoric settlement; and
  <bullet> the West Rim of the Painted Desert parcel, significant for 
        its substantial number of archeological sites including three 
        ruins, an ancient petrified wood quarry and a petroglyph site 
        as well as several paleontological fossil beds adjacent to the 
        Devils Playground bone site within the park.

    These fossils are non-renewable, unique resources that face 
constant threat of destruction from erosion and theft, development 
pressures, and the attraction of commercial mining, particularly of 
petrified wood. Petrified Forest National Park has an established 
monitoring program within the park as one of many resource protection 
tools. The NPS would use that established monitoring program, as well 
as all law enforcement and resource protection tools in the expanded 
boundary. S. 784 would ensure long-term protection of the valuable 
paleontological, archeological, cultural, and natural resources of the 
Petrified Forest for generations to come.
    In addition to including the acreage and map reference, we would 
suggest two other amendments. First, because of the checkerboard nature 
of the land ownership of the lands being considered under this bill, 
especially in the portion known as the East Chinle Escarpment, NPS is 
concerned about the ability to manage this area effectively. NPS would 
like to amend the bill to provide that the acquisition of the East 
Chinle parcel is authorized dependent upon a determination of the 
Secretary that either 1) federal lands elsewhere in the state of 
Arizona have been identified for exchange with the state lands or 2) 
that the state and the NPS have completed a Memorandum of Agreement 
that would allow the NPS to manage the state lands. Second, the bill 
should be amended to authorize the Department to acquire State land 
within the revised boundary of the Park by donation. These amendments 
were also suggested in the hearing on H.R. 1630 and were adopted in the 
markup of that bill.
    S. 784 would continue the long and respected tradition and 
commitment of the NPS to science, education, and protection of the 
special places in the country significant enough to be considered 
national parks. These lands and resources are the legacy of the 
American people and by protecting them we expand our knowledge and 
understanding of the history of the earth and how changes through time 
have affected it.
    That concludes my remarks. Mr. Chairman, I would be happy to answer 
any questions you may have.

    STATEMENT OF P. DANIEL SMITH, SPECIAL ASSISTANT TO THE 
 DIRECTOR, NATIONAL PARK SERVICE, DEPARTMENT OF THE INTERIOR, 
                       REGARDING S. 2656

    Mr. Smith. Mr. Chairman, the second bill is S. 2656, a bill 
that would establish a commission to commemorate the 
quincentennial of the discovery of Florida by Ponce de Leon.
    The Department supports S. 2656 if amended as outlined in 
our testimony.
    S. 2656 would establish a Discovery of Florida 
Quincentennial Commemoration Commission to encourage, 
coordinate, and conduct the commemoration of the 
quincentennial, and to ensure that the anniversary will have 
lasting educational value. The commission would terminate on 
December 31, 2013.
    The Department suggests several clarifying amendments. We 
recommend that if a feasibility study is conducted, that the 
bill be amended to authorize the Secretary of the Interior to 
conduct the study, rather than the commission, in accordance 
with generally accepted practices for suitability and 
feasibility studies that the Park Service uses.
    Also, while S. 2656 is quite specific in requiring the 
commission to consult with and encourage participation with 
governmental agencies, educational institutions, foreign 
governments, and private organizations, it is silent with 
regard to consultation with Indian tribes, and the Department 
recommends that consultation with tribes be included, 
especially the Seminole and the Miccosukee tribes of Florida.
    There is also a minor constitutional issue brought up by 
the Justice Department concerning dealing with the Government 
of Spain, and we would work with the committee to work on that 
clarifying amendment.
    This concludes our remarks in support of S. 2656.
    [The prepared statement of Mr. Jones regarding S. 2656 
follows:]

 Prepared Statement of A. Durand Jones, Deputy Director, National Park 
            Service, Department of the Interior, on S. 2656

    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the views of the Department of the Interior on S. 
2656, a bill that would establish a commission to commemorate the 
quincentennial of the discovery of Florida by Ponce de Leon.
    The Department supports S. 2656 if amended as outlined in our 
testimony. We believe that establishment of the commission would help 
ensure that the lasting legacy of the discovery and colonization of 
Florida is understood and appreciated by all Americans.
    S. 2656 would establish a Discovery of Florida Quincentennial 
Commemoration Commission to encourage, coordinate, and conduct the 
commemoration of the quincentennial and to ensure that the anniversary 
will have lasting educational value.
    Specifically, the bill would establish a Commission composed of 12 
members who are Presidentially appointed and have demonstrated a strong 
sense of public service and expertise that will contribute to the 
duties of the Commission. The duties of the commission would include 
conducting a study regarding the feasibility of creating a National 
Heritage Area or National Monument to commemorate the discovery of 
Florida, planning and developing activities appropriate to commemorate 
the Quincentennial, consulting with and encouraging appropriate 
governmental entities as-well-as elementary and secondary schools, 
colleges and universities, foreign governments, and private 
organizations to organize and participate in Quincentennial activities, 
and coordinating activities throughout the United States and 
internationally that relate to the history and influence of the 
discovery of Florida. The Commission would terminate on December 31, 
2013.
    As S. 2656 suggests, Juan Ponce de Leon, arriving in 1513, was 
likely the first European to set foot in what is now Florida, near 
present-day St. Augustine. Ponce de Leon's quest for the fountain of 
youth has become an established legend that has also drawn fame and 
recognition to Florida and the United States.
    Spanish explorers and conquistadors who followed Ponce de Leon 
sought gold and other treasures, glory, and fame, like those who had 
previously made such discoveries in Mexico and Peru. Only in the New 
World was there the opportunity for quick advancement in diplomatic and 
Spanish military careers. Others came to advance the cause of the 
Inquisition, to convert all non-believers in the New World.
    Historians generally believe that Ponce de Leon landed at or near 
the present location of the City of St. Augustine. Spanish heritage is 
still reflected in local architecture and historic resources and 
attractions in the center of the old part of the city. The Castillo de 
San Marcos National Monument contains arguably one of the oldest and 
most important historic structures in the State and the nation. It is 
prominently located on the Matanzas River directly across the road from 
the Spanish Quarter of St. Augustine. These aspects of St. Augustine's 
heritage combine to make it the ideal location for the offices of the 
Commission.
    The Department suggests several clarifying amendments for S. 2656. 
We recommend that if a feasibility study is conducted, as specified in 
Section 5(a)(1) of the bill, that the bill amended to authorize the 
Secretary of the Interior to conduct the study, rather than the 
Commission, in accordance with generally accepted practices for 
suitability and feasibility studies, to determine what, if any, type of 
unit would be appropriate to commemorate the discovery of Florida 
within the National Park System. In addition to examining whether a 
unit of the National Park System would be appropriate, such a study 
would also examine other alternatives for a federal role, including 
whether designation of a National Heritage Area should be considered.
    Also, while S. 2656 is quite specific in requiring the Commission 
to consult with and encourage participation in the commemoration by 
governmental agencies, educational institutions, foreign governments, 
and private organizations, we note that it is silent with regard to 
consultation with and involvement of the Indian tribes of Florida, 
particularly the Seminole and Miccosukee tribes. The Department 
suggests that Section 5(a)(3) of the bill be amended to require the 
Commission to consult with Indian tribes in Florida, as well as with 
foreign governments and State and local governments.
    We recommend that Section 4(c)(3) be deleted due to concerns that 
the Department of Justice has raised regarding the constitutional 
authority of this provision of the bill. We will be happy to work with 
the Committee as well as the Department of Justice and the Department 
of State in order to find appropriate ways to involve the Government of 
Spain in activities regarding the Commission.
    Finally, S. 2656 authorizes appropriations that are necessary for 
each fiscal year from 2005 to 2013. We recommend that $250,000 a year 
be authorized for this effort given other competing priorities and the 
need to focus federal funds on our parks and other essential programs.
    Our suggested amendments are attached to this testimony.
    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to answer any questions you or any members of the subcommittee 
might have.

                               __________

                          Proposed Amendments

          S. 2656--QUINCENTENNIAL OF THE DISCOVERY OF FLORIDA

    On page 5, line 1, strike paragraph (3) and renumber the following 
paragraph 4 as 3.
    On page 6, line 18, strike ``(1) conduct a study regarding the 
feasibility of creating a National Heritage Area or National Monument 
to commemorate the discovery of Florida;'', and renumber the following 
paragraphs 2, 3, and 4 as 1, 2, and 3.
    On page 7, line 6, insert ``tribal governments,'' after 
``governments,''.
    On page 16, line 14, strike all of subsection (a) and insert the 
following new subsection;
    ``(a) IN GENERAL.--Subject to subsection (b) there is authorized to 
be appropriated to carry out the purposes of this Act $250,000 for each 
of fiscal years 2005 through 2013.''
    On page 16, following line 23, insert the following new section;
    ``SEC. 10. STUDY.--
    The Secretary of the Interior shall--
    (1) conduct a study regarding the suitability and feasibility of 
commemorating the discovery of Florida with a unit within the National 
Park System in accordance with Section 8(c) of Public Law 91-383 (16 
U.S.C. 1a-59(c)); and
    (2) submit a report to Congress that describes the findings of the 
study and any conclusions and recommendations of the Secretary not 
later than 3 years after the date on which funds are made available to 
carry out the study.''

    Senator Graham. Mr. Chairman?
    Senator Thomas. Yes, the Senator from Florida.

          STATEMENT OF HON. BOB GRAHAM, U.S. SENATOR 
                          FROM FLORIDA

    Senator Graham. I apologize for arriving late. I appreciate 
your putting this legislation on the schedule.
    The event that is going to take place seems like a long way 
away, but in terms of the ability to prepare for such an 
important celebration, I think it is timely.
    In 1513, the first European discovery of North America 
occurred when Ponce de Leon bumped into what is now St. 
Augustine in the State of Florida. That event commenced the 
development of our great continent, and it deserves, in my 
judgment, the kind of recognition that this commission would 
call for.
    I am going to raise some questions about the amendments 
that have been suggested. One is Spain has been a long, long 
ally of the United States and has been a participant most 
recently in the war in Iraq until there was a change of 
government. This is an important opportunity for Spain and the 
United States to recognize their many intersections in history, 
and the purpose of inserting that provision about Spanish 
participation was to accomplish that purpose. I can say that 
there is considerable interest in this in Spain as a means of 
celebrating the historic links between our country and our 
cultures.
    I think this would also be an important statement for the 
large Hispanic population in the United States, to recognize 
their heritage and their culture as an important part of the 
culture of the United States of America.
    So I would be open to work on language, but the idea of 
maintaining this relationship with Spain I think is an 
important part of the concept of this celebration.
    [The prepared statement of Senator Graham follows:]

   Prepared Statement of Hon. Bob Graham, U.S. Senator From Florida, 
                               on S. 2656

    Mr. Chairman, I appreciate your including my bill on the agenda 
today. In 2013, our nation will celebrate the 500th anniversary of 
Ponce de Leon's landing on the east coast of Florida. I introduced a 
bill that establishes a commission to determine how we can best 
commemorate his discovery of North America. For a country as young as 
ours, a Quincentennial is a rare milestone worthy of tribute.
    Juan Ponce de Leon landed on the coast of Florida, south of the 
present-day St. Augustine, in April of 1513. During the Easter holiday, 
he explored our coasts, visiting the southern half of the east coast, 
the Florida Keys and the southwest coast of Florida. The first European 
explorer to step foot on North American soil, Ponce de Leon opened 
Florida and the mainland of the Americas to the rest of the world. 
Florida owes its heritage to Ponce de Leon. Even the name Florida dates 
back to Ponce de Leon's discovery. When he saw the lush terrain, Ponce 
de Leon named the area the `land of flowers' or `Florida' in Spanish.
    While there is no doubt that Ponce de Leon is a key part of 
Florida's history, his landing in Florida is ingrained in our entire 
nation's early history. Children read in their history books about the 
myths surrounding Ponce de Leon's voyages. His quest for the fountain 
of youth has become a myth symbolic of the age of exploration.
    Other Europeans were encouraged to make the dangerous journey 
across the Atlantic toward the Americas, persuaded by the stories of 
Ponce de Leon's explorations of the new lands of North America. 
Ultimately, his discovery opened the path for exploration and 
colonization of the Americas.
    I have drafted this bill with the assistance of a notable scholar 
accomplished in the field of early Florida history--Dr. Samuel Proctor, 
Distinguished Service Professor Emeritus of History at the University 
of Florida. I would like to thank Dr. Proctor for all of his efforts in 
drafting this bill. I would also like to thank another eminent scholar 
at the University of Florida, Dr. Michael Gannon, Distinguished Service 
Professor Emeritus of History, for his testimony in support of the 
bill.
    Funding authorized by this legislation would support the activities 
of this commission and would allow for educational activities, 
ceremonies, and celebrations. Fittingly, the principal office for this 
operation would be located in St. Augustine, Florida.
    With the establishment of this commission, I want to not only 
commemorate Ponce de Leon's arrival in Florida but also to enhance the 
American public's knowledge about the impact of Florida's discovery on 
the history of the United States and North America. I hope that my 
colleagues will recognize the importance of commemorating this historic 
event.
    The National Park Service has proposed a number of changes to the 
original bill, one of which shifts the responsibility of conducting a 
study as to creating a National Park Service site from the commission 
to the National Park Service. I hope that the National Park Service 
will not object to consulting with the commission in conducting the 
study.
    I have proposed several changes to the original bill. They reduce 
the number of commission members from 12 to 10, change the method of 
selecting commission members, and add a specific authorization figure.
    I hope the proposed changes meet the concerns of the National Park 
Service and Committee members. If not, I am willing to discuss the 
issues further. I hope we can work together to pass this legislation 
before Congress adjourns for the year.
    Thank you.

    Mr. Smith. Senator, it was my understanding that it was a 
very technical constitutional issue, and the Justice Department 
and Interior will coordinate. I believe it is certainly not to 
preclude----
    Senator Graham. It is not a policy issue.
    Mr. Smith. No. It was a constitutional issue involving just 
how we deal with foreign governments. It certainly is not to 
preclude Spain. It is to find the correct language that will 
allow that type of participation to occur.
    Senator Graham. Muy bien.
    [Laughter.]
    Senator Graham. The second issue that I understand was 
being raised was the question of the authorization level for 
the amount of funding. I frankly cannot tell you with much 
confidence today what this is going to entail over the next 
several years.
    What would seem to me to be more appropriate would be to 
set an authorization level, for instance, similar to that which 
was provided in the Lewis and Clark Trail, and then allow the 
appropriators, on a year-by-year basis, to evaluate what was 
appropriate and make the judgment. With the number that I 
understood was being suggested, we would be setting a pretty 
tight cap for a celebration, which I hope is going to be as 
expansive as this. While much of it will focus on the St. 
Augustine point of landing, I would hope that this would become 
a celebration for the Hispanic role and influence throughout 
our country.
    Mr. Smith. Senator, the amount of $250,000 suggested by the 
administration is done with all of the concerns that we have in 
the Park Service budget, whether it be heritage areas or new 
areas or studies. Obviously, we fully recognize the authorizing 
and appropriations committees will make those determinations as 
the bill moves forward.
    Senator Graham. Well, my concern is if we start with an 
authorization of $250,000, then that at least appears to be a 
ceiling on what the appropriations might be, and I would 
suggest that we consider some number that would allow for 
flexibility over what is going to be a 9-year period between 
now and when this comes to fruition.
    Could we do this? Let me engage with the people in the 
administration. I assume this is primarily through the National 
Park Service. Which agency has suggested this?
    Mr. Smith. The National Park Service, in consultation with 
OMB, Senator. Again, you would be correct, in having the 
history that you have, of what has gone on at Jamestown or 
Lewis and Clark or others. Obviously, the authorizing committee 
and the Appropriations Committee will consider that as it moves 
through. This was the recommended amount, rather than just 
leaving it as the usual language of ``sums necessary to carry 
out the act.''
    Senator Graham. Mr. Chairman, how do you want to proceed on 
this?
    Senator Thomas. Well, we can make some conversation 
afterwards and so on. We do not do it here, of course, in the 
hearing, but whatever you would like to do. I happen to 
personally think there ought to be some level. We ought to 
decide. It makes you much more comfortable with a bill if you 
have some sort of a limit on what the authorizations can be.
    Senator Graham. Are you anticipating that there will be a 
markup on this legislation?
    Senator Thomas. Senator, I do not know. There could be 
because we do have some time, but frankly, I think the notion 
is unlikely that we will have a markup this year. Does anyone 
have any better information?
    Senator Kyl. I am hoping.
    Senator Thomas. I am not sure.
    Senator Graham. Are you hopeful that we do?
    Senator Kyl. I said I am hoping.
    Senator Thomas. There is none scheduled. That does not 
necessarily mean there will not be one.
    Senator Graham. Thank you.
    Senator Thomas. Are you finished?
    Senator Graham. The completes my comments, yes. Thank you.
    Senator Thomas. Thank you.
    All right. If you would like to go on ahead then with the 
other bills, please.

    STATEMENT OF P. DANIEL SMITH, SPECIAL ASSISTANT TO THE 
 DIRECTOR, NATIONAL PARK SERVICE, DEPARTMENT OF THE INTERIOR, 
                       REGARDING S. 2499

    Mr. Smith. Yes, Senator. I had finished on that bill, and 
the next one is S. 2499, a bill to authorize the Secretary of 
the Interior to modify the boundaries of the Harry S Truman 
National Historic Site in the State of Missouri.
    The Department strongly supports the enactment of S. 2499.
    [The prepared statement of Mr. Jones regarding S. 2499 
follows:]

 Prepared Statement of A. Durand Jones, Deputy Director, National Park 
            Service, Department of the Interior, on S. 2499

    Mr. Chairman, thank you for the opportunity to testify on S. 2499, 
a bill to authorize the Secretary of the Interior to modify the 
boundaries of the Harry S Truman National Historic Site in the State of 
Missouri. The Department strongly supports enactment of S. 2499. The 
Administration transmitted a similar proposal to Congress on June 2.
    Harry S Truman National Historic Site is comprised of two separate 
units within the Greater Kansas City Metropolitan area in Missouri. The 
current acreage is 6.67 acres with the 1.41-acre portion in 
Independence divided between four residential properties including the 
Truman Home. The 5.26-acre portion in Grandview includes the Truman 
Farm Home. S. 2499 would add approximately 5 acres of the original 600-
acre Truman Farm that abut the Grandview unit. These two contiguous 
parcels are the only undeveloped land that remains of the original 
Truman Farm. This additional acreage would preserve the historic 
integrity of the Grandview site, provide improved on-site visitor 
amenities and interpretation, permit vegetative screening of existing 
development, and prevent additional commercial encroachment to the 
Truman Farm.
    This expansion is included in the park's approved 1999 General 
Management Plan. It is the only land acquisition priority for this 
park. Both property owners are willing to sell their land to the 
National Park Service for the purposes defined in the park's General 
Management Plan and Long-Range Interpretive Plan. Public Law 103-184 
authorized the addition of the Truman Farm Home by donation from 
Jackson County, Missouri, and directs the Secretary to provide 
appropriate means to minimize the adverse effects of development and 
use of adjacent lands.
    The proposed 5-acre strip of land is basically undeveloped (3.82 
acres) except for the small retail paint store (.95 acre) located at 
the west end and fronting on Blue Ridge Boulevard. The strip separates 
the park boundary on the south from a five-story retirement housing 
facility. The paint store is connected to all utilities (water, sewer, 
electricity, and telephone) and has a paved parking area in front. The 
total land acquisition cost for both parcels is estimated at about 
$900,000, with a current economic price escalation factor of 3 percent 
per year.
    S. 2499 would allow the park to remove non-historic items, such as 
the existing paved parking area, the paved entrance road, temporary 
park maintenance shed, portable toilet, and flag pole from the historic 
scene and relocate them to the new visitor contact center in the 
renovated existing paint store and paved parking area. The historic 
earthen entrance lane would then be re-established and used by visitors 
as the walk-in entrance to the site.
    The use of the existing paint store as a visitor contact center 
would permit the park to eliminate the use of the Truman Farm Home's 
screened-in side porch as a visitor welcome point and cooperating 
association sales area, which is not sheltered from inclement weather. 
This would restore the historic integrity to the home, remove the 
impact of the wear and tear on the historic structure, and provide 
visitors with a sheltered staging area for tours. In addition, indoor 
handicapped accessible restroom facilities and drinking water would be 
available to visitors.
    Passage of S. 2499 would have minimal impact on the park's current 
budget. In order to convert the paint store building into a visitor 
contact center, the park would request a one time nonrecurring project 
sum estimated at $530,000 after acquisition of the 5 acres. The project 
would include minor remodeling of the paint store, development of an 
audiovisual program, and the construction of exhibits as well as 
restoration of the historic scene. The request for funds would be 
subject to National Park Service prioritization procedures for non-
recurring project funding, so a specific timeframe cannot be identified 
for completion of this work. To operate the visitor contact center at 
current visitation levels from May 1 to October 15 would require an 
annual operating increase estimated at $103,000. This figure includes 
all staff, maintenance, and utility costs.
    Upon acquisition of the two parcels, the park would be able to 
increase the visitor's experience, understanding, and appreciation of 
how Harry S Truman's time spent as a farmer helped develop his 
character and principles. This would be done through restoring the 
historic scene and utilizing interpretive exhibits and audiovisual 
programs in the visitor contact center. The interpretive media in this 
center would help the visitor understand what it must have been like to 
work on and manage a 600-acre Missouri farm during the turn of the 20th 
century, before they go out to tour the farm home.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.

    STATEMENT OF P. DANIEL SMITH, SPECIAL ASSISTANT TO THE 
 DIRECTOR, NATIONAL PARK SERVICE, DEPARTMENT OF THE INTERIOR, 
                       REGARDING S. 1311

    Mr. Smith. Mr. Chairman, the next bill is S. 1311, a bill 
to provide for the establishment of the Hudson-Fulton-Champlain 
Commemoration Commission.
    The Department supports the enactment of this bill if 
amended to reduce the number of commission members and to cap 
the annual appropriations to the commission, much in the same 
way as we requested that for the Ponce de Leon commission bill.
    S. 1311 provides for the establishment of a commission to 
undertake the activities celebrating the contributions of Henry 
Hudson, Robert Fulton, and Samuel de Champlain to the history 
of our Nation. It proposes a commission of 31 members. We 
recommend that that be reduced to 15 to 17 members. We find 
that in the history of commissions, that is a much more 
workable number.
    And the Department does recommend that the authorizing 
level be at $250,000 per year during the period of its 
operation.
    That concludes my comments on S. 1311.
    [The prepared statement of Mr. Jones regarding S. 1311 
follows:]

 Prepared Statement of A. Durand Jones, Deputy Director, National Park 
            Service, Department of the Interior, on S. 1311

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 1311, a bill to provide for the 
establishment of the Hudson-Fulton-Champlain Commemoration Commission. 
The Department of the Interior supports this bill, if amended to reduce 
the number of commission members, to clarify Section (4)(d)(1), and to 
cap annual appropriations to the Commission.
    S. 1311 provides for the establishment of the Commission to 
undertake activities celebrating the contributions of Henry Hudson, 
Robert Fulton and Samuel de Champlain to the history of our nation. 
Henry Hudson, as the master of the vessel Half Moon, was the first 
European to sail up the river that now bears his name in 1609. In 1807, 
Robert Fulton navigated up the same river between New York City and 
Albany in the steamboat Claremont, revolutionizing the method of 
waterborne transportation and influencing forever commerce, the world's 
navies, and transoceanic travel and trade. The French explorer, Samuel 
de Champlain, was the first European to discover and explore what is 
now called Lake Champlain in 1609.
    The Commission, composed of thirty-one (31) members, would be 
appointed by the Secretary of the Interior based, in part, on 
nominations from the governors of New York, New Jersey and Vermont and 
members of Congress from those states whose districts encompass the 
Hudson River and Champlain Valleys. Nine additional members would also 
be appointed by the Secretary including the Director of the National 
Park Service, or her designee, and one other NPS employee with relevant 
commemoration experience. The National Park Service would also provide 
administrative assistance to the Commission on a reimbursable basis.
    The duties of the Commission are to plan, develop, and execute 
appropriate commemorative actions, coordinate with federal and state 
entities, and encourage a wide range of organizations to participate in 
activities and expand understanding and appreciation of the 
significance of the voyages of these three men. It is granted broad 
powers to accomplish these tasks.
    The Department recommends several amendments. First, we believe 
that a thirty-one member commission is too large and would be difficult 
to establish in a timely manner, would probably not work effectively 
and efficiently, and would be too costly. We recommend a smaller 
commission, with perhaps fifteen to seventeen members. We would like to 
work with the committee to develop an amendment that would reduce the 
number of commission members while ensuring a continued role for House 
and Senate members and the Governors from the relevant areas in the 
selection process.
    Second, section (4)(d)(1) of the bill provides that the Commission 
may ``disperse funds, and accept donations of personal services and 
real and personal property related to the Hudson-Fulton-Champlain 2009 
and of the significance of Hudson, Fulton, and Champlain in the history 
of the United States.'' We suggest that the word ``money,'' be inserted 
between the phrases ``donations of'' and ``personal services'' in this 
subsection. We believe that the Commission should be authorized to 
accept monetary donations, as well as those other donations to 
accomplish its tasks.
    Third, given other competing priorities and the need to focus 
federal funds on our parks and other essential programs, we also 
suggest an amendment to cap the appropriations to the Commission at 
$250,000 per year during its period of operation.
    Mr. Chairman, that concludes my testimony. I will be happy to 
answer any questions of members of the Committee.

                               __________

                     PROPOSED AMENDMENTS TO S. 1311

    Page 16, line 4, insert the following:
    ``(i) AUTHORIZATION OF APPROPRIATIONS.--
    ``(1) IN GENERAL.--There are authorized to be appropriated to carry 
out the purposes of this Act not more than $250,000 for each of fiscal 
years 2005 through 2010.
    ``(2) AVAILABILITY OF FUNDS.--Amounts appropriated under this 
section for any fiscal year shall remain available until December 31, 
2010.''
    Page 16, line 4: renumber section 4 (i) as section 4 (j).

    STATEMENT OF P. DANIEL SMITH, SPECIAL ASSISTANT TO THE 
 DIRECTOR, NATIONAL PARK SERVICE, DEPARTMENT OF THE INTERIOR, 
                      REGARDING H.R. 2055

    Mr. Smith. Mr. Chairman, the final bill is the Department 
of the Interior's views on H.R. 2055. This bill would increase 
the number of free roaming horses at Cape Lookout National 
Seashore.
    The Department supports H.R. 2055's efforts to adjust the 
number of free roaming horses within Cape Lookout National 
Seashore. And it is my understanding that the House has passed 
a bill that the Department can support. We had recommended 
language that the bill specify a maximum of 130 horses, but the 
language in the bill does work to sustain this healthy, free 
roaming herd of wild horses on the Shackleford Banks of North 
Carolina.
    That, Mr. Chairman, concludes my statement before the 
committee and I look forward to answering any questions from 
the members.
    [The prepared statement of Mr. Jones regarding H.R. 2055 
follows:]

 Prepared Statement of A. Durand Jones, Deputy Director, National Park 
           Service, Department of the Interior, on H.R. 2055

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 2055. This bill would 
increase the number of free roaming horses at Cape Lookout National 
Seashore.
    The Department supports H.R. 2055's efforts to adjust the number of 
free roaming horses within Cape Lookout National Seashore (Seashore) 
with an amendment, as stated in this testimony, that clarifies the 
population range of the horses. On June 24, 2003 the Department also 
testified in support of H.R. 2055 at a hearing before the House 
Subcommittee on National Parks, Recreation, and Public Lands.
    The Department is strongly committed to conserving, protecting, and 
maintaining a representative number of horses on the Shackleford Banks 
portion of the Seashore, as we have done in other units of the National 
Park System which contain horses, and believes that the number of 
horses on Shackleford Banks should be determined by the ecology of the 
island and by means which protect the genetic viability of the 
Shackleford Banks horses. Without this legislation, NPS would manage 
this herd consistent with P.L. 105-229 which provides for a herd of 100 
free roaming horses.
    H.R. 2055 amends P.L. 89-366 by changing the number of free roaming 
horses at Cape Lookout National Seashore from 100, to not less than 
110, and establishes a target population of between 120 and 130 horses. 
The bill also changes one of the criteria that the Secretary of the 
Interior may use to remove free roaming horses from the Seashore, 
allowing removal as part of a plan to maintain viability of the herd.
    Congress established Cape Lookout National Seashore (Seashore) on 
March 10, 1966. Encompassing more than 28,000 acres of land and water 
about 3 miles off the mainland coast, the Seashore protects one of the 
few remaining natural barrier island systems in the world with 
excellent opportunities for fishing, shellfishing, hunting, 
beachcombing, hiking, swimming, and camping in a wild and remote 
setting.
    The enabling legislation for the Seashore did not address the issue 
of free-roaming wild horses on Shackleford Banks. Public comments on 
the Seashore's 1982 Draft General Management Plan demonstrated 
widespread concern about, and interest in, the future of the horses on 
Shackleford Banks. The Final General Management Plan stated that a 
representative number of horses would remain on Shackleford Banks after 
the privately owned land on the island was purchased by the United 
States.
    In 1996, following a series of public meetings, as well as 
discussions with scientists and professional managers of wild horse 
herds, the Seashore developed an Environmental Assessment (EA) with 
alternatives for managing the Shackleford Banks horse herd. That plan, 
while acceptable to the public, was opposed by some groups who rejected 
the idea of any management intervention. The plan proposed to maintain 
a representative herd of horses by using a combination of contraceptive 
drugs and periodic roundups and removal of horses.
    On November 11, 1996, the National Park Service (NPS), with 
assistance from state veterinarians from the North Carolina Department 
of Agriculture, initiated a roundup of the Shackleford horses. State 
law required testing the horses for Equine Infectious Anemia (EIA). Out 
of the 184 horses on the island, 76 tested positive for EIA and were 
removed to the mainland for temporary quarantine. On the advice of the 
North Carolina Department of Agriculture, these horses were euthanized.
    In December 1996, the NPS established the Shackleford Banks Horse 
Council, representing a wide variety of interests and stakeholders, as 
a working committee to assist the park with plans for managing horses. 
In 1997, a second roundup and testing program was conducted on the 
Shackleford horses. Of the 103 horses on the island, five tested 
positive for EIA. By this time, the Foundation for Shackleford Horses, 
Inc. had secured a state-approved quarantine site and the five EIA 
positive horses were transferred to it. In the transfer document, the 
Foundation and the Service committed to develop a long-term Memorandum 
of Agreement (MOA) to cooperate in the management of the Shackleford 
Banks horses. On an interim basis, the Service issued a special use 
permit to the Foundation to allow it to assist with the management of 
the herd.
    On August 13, 1998, Congress passed P.L. 105-229, ``An Act To 
Ensure Maintenance of a Herd of Wild Horses in Cape Lookout National 
Seashore.'' This act directed the NPS to maintain a herd of 100 free 
roaming horses and to enter into an agreement with the Foundation for 
Shackleford Horses, Inc. or another qualified nonprofit entity, to 
provide for the management of free roaming horses in the Seashore. In 
April 1999, a Memorandum of Understanding with the Foundation for 
Shackleford Horses, Inc. was signed.
    P.L. 105-229 requires an annual Findings Report that provides the 
public with information regarding the population, structure, and health 
of the horses on Shackleford Banks. Research, monitoring and record 
keeping, with the goal of informed decisions for removal and 
immunocontraception, is ongoing, as is consultation with 
internationally recognized advisors in the fields of equine behavior, 
genetics, virology, immunocontraception, management, humane issues, and 
island ecology. The NPS continues to work with the Foundation under the 
MOU and management decisions regarding the horses are reached jointly 
with the Foundation and with the advice of scientists.
    On October 29 and 30, 2002, the NPS hosted a roundtable meeting 
with the aim of reaching a consensus on the free roaming horse 
population range and the strategy for achieving that range. 
Participants included the Seashore Superintendent and staff, staff from 
Representative Jones' office, and representatives from the Foundation 
for Shackleford Horses, Inc. Three leading scientists considered 
experts in their respective fields also participated: Dr. Dan 
Rubenstein of Princeton University, Dr. Gus Cothran of the University 
of Kentucky, and (by telephone) Dr. Jay Kirkpatrick of ZooMontana.
    Included in the discussion was the value of occasional herd 
expansion to maintain genetic variability in the population. The 
conclusion reached was that the population should be allowed to 
fluctuate between 110-130 individuals. The methodology of conducting 
removal and contraception toward this goal was also discussed and 
agreed upon. The range of 110 to 130 horses is based on sound science 
and provides the population changes, which are necessary for 
maintaining the genetic viability of the herd.
    Based upon the October roundtable discussion, we recommend an 
amendment to the bill that is attached to this testimony. We believe 
that this amendment will more clearly reflect the need to allow the 
population bloom necessary for maintaining the genetic viability of the 
herd.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the subcommittee may have.

                               __________

                     SUGGESTED AMENDMENT, H.R. 2055

    On page 2, line 1, delete ``with a target population of between 120 
and 130'' and insert, ``allowing periodic population expansion of the 
herd to a maximum of 130 horses''.

    Senator Thomas. Thank you very much.
    Let me ask a couple of questions here. Let us go back to 
the Petrified Forest. This is a substantial increase in size, 
over 120,000 acres. Is that correct?
    Mr. Smith. Yes, 128,000 according to the map that we have 
now provided the committee, Senator.
    Senator Thomas. Do you ever consider some kind of trade? My 
State is 50 percent owned by the Federal Government, so I am 
not anxious to increase the net numbers. Is there any way to 
talk about trades, or have you considered some kind of 
reduction in other Federal holdings in order to offset this 
120,000 acres?
    Mr. Smith. Mr. Chairman, this is a complicated land 
pattern. About 15,000 of the acres would be BLM lands, which 
the Park Service would just do an exchange in that ownership. 
So that brings it down to about 103,000 or 104,000. The 79,000 
of private ownership, obviously, I think you will hear later 
from witnesses here today that these are large ranches. They 
are willing to sell but I do not know what exchange 
possibilities would be there.
    And then, as Senator Kyl alluded to, the 34,000 or 35,000 
acres of State land is really complicated right now with the 
way that Arizona has dealt with their public lands issues 
because they are a public lands State. So there are 
possibilities that something could be worked out, depending on 
if they change their State constitution, that we could enter 
into exchanges in the future, but there really are not exchange 
opportunities with what we are looking at here, and because the 
State cannot donate land, there really are not donation 
possibilities right now either. But this is still a little bit 
in movement because the State is going to consider whether they 
would change their constitution to allow that.
    The reason for the acreage, though--and believe me, this 
administration looks very carefully before we recommend land 
acquisition, looking at budgets, property rights and other 
issues in the country. But as Senator Kyl said, this is an 
amazing escarpment of world-class fossils. This is an attempt, 
10 or 12 years of effort, to try to do something to put a 
boundary around these lands that will assure they are protected 
for future generations.
    Senator Thomas. What about the county and the tribal? What 
is their point of view?
    Mr. Smith. There are letters of support from the county. I 
believe the Hopi and the Navajo tribes have been in informal 
discussions with the superintendent, but I am not aware that 
there is anything official as far as a statement that they have 
made for the record yet.
    Senator Thomas. What is the estimated cost of the 
acquisition of these lands?
    Mr. Smith. Senator, that is always a difficult thing when 
you deal with appraisals, but it is my understanding that some 
work has been done on the ground out there. They have looked at 
the private acres, the private ownership, and they are looking 
at somewhere around $14 million at a high, $8 million at a low. 
But again, until you really appraise it and come to agreement 
on those values, that is just the range that has been looked at 
very briefly out there. But basically it does have a price tag 
in the tens of millions of dollars.
    Senator Thomas. Before you agree to support it, would you 
not want to know what it is going to cost?
    Mr. Smith. Well, in the world of appraisal, you really do 
not know until you get on the land. This is based on other 
actuals that have been completed in the area and whatever else. 
Again, this is the range. BLM and NPS have sort of looked at 
this range, and that is what I put on the record today, 
Senator.
    Senator Thomas. It is my understanding Congress 
appropriated $2 million in 2000 for the acquisition. It could 
not be spent. Now we understand BLM has spent the money for 
wildfire suppression. What is the status of that?
    Mr. Smith. Senator, it is my understanding that part of the 
money we spent on fire suppression. The Park Service also has 
to contribute to that, and as you all from the West know, we 
just had tremendous fire seasons. It is my understanding that 
some of that $2 million, which is an add-on to the 
administration's request, was spent for fire suppression, and 
then, because BLM did some appraisals but could not get to an 
agreed-upon price with the willing sellers, they did reprogram 
part of that money through the Senate and House Appropriations 
Committees and did apply it to some lands in Idaho.
    I am not fully aware of the status of whether that money 
came back in a supplemental or not, but I would say it is very 
common that land acquisition money is utilized for fire 
management when it is necessary, and then we hope to get 
supplementals to replace that. To my knowledge, maybe $1.6 
million has been made available, but I would have to look that 
up for the record, Senator.
    Senator Thomas. On S. 2656, I do not think I have been 
involved in commemoration commissions before. Is this customary 
for the Park Service to be the lead agency on these?
    Mr. Smith. Yes, to my knowledge it is. We have other 
examples. Lewis and Clark is a major commemoration that is 
going on right now. The Park Service is certainly involved in a 
very major way but with the other agencies in Interior and 
other governmental agencies. The commemoration for Jamestown, 
the 400th anniversary there, has the Park Service involved with 
a commission, and we certainly staff that for the commission. 
And there are others we could provide for the record, Senator. 
They escape me right now.
    Senator Thomas. Senator, do you have any questions?
    Senator Graham. Mr. Chairman, I have a statement which I 
would like to submit for the record at the appropriate place.
    Senator Thomas. Absolutely. We will have it in the record.
    So the commemoratory commissions are a normal way to do 
this, but is there some end to it? Does the responsibility of 
the park terminate at some point?
    Mr. Smith. Yes, Senator. Almost all of the commissions--the 
administration position is they do have a termination date, and 
in the case of the Ponce de Leon, that is 2013. It would 
terminate, I believe it is, on December 31 of that year. But 
yes, the legislation usually always does include a closeout 
date.
    Senator Thomas. For the commission or for the Park 
Service's role?
    Mr. Smith. For the commission.
    Senator Thomas. On S. 2499, is there any other land that 
has been identified for the future of the Harry Truman site?
    Mr. Smith. Senator, it is my understanding this is the last 
available 5 acres and there is no intention of looking for 
other land. This land is immediately adjoining, protects the 
farm, and there is no discussion of any additional acreage that 
would have this importance in protecting the resources that are 
already part of the park. Most of the rest of the nearby land 
has been developed.
    And I would add that the landowners in this case are both 
willing sellers also, Senator.
    Senator Thomas. Let us see then. We have another 
commemoration, the Hudson-Fulton-Champlain. What events do you 
expect to conduct to commemorate this event?
    Mr. Smith. Mr. Chairman, I cannot go into specifics here 
today, but I will tell you that there is already a heritage 
area that identifies the Hudson. There are at least 6, if not 
10, National Park Service sites along the Hudson, as well as 
many State and local areas of interest. Kingston, New York is 
there, the first capital of New York. So my feeling is that 
they would intertwine the commemoration of this in New York and 
up the Hudson and into Vermont in any number of key events in 
our history. That is such a historic river valley for our 
Nation. I can certainly try to provide some of that to you, but 
it obviously is an area of tremendous importance.
    Senator Thomas. I guess I am curious, trying to identify 
what the role of the Park Service is going to be. We are 
talking constantly about not having enough money and having to 
pick up repairs from the past. Yet, we find ourselves now, 
what, with 389 parks or whatever, doing heritage sites, doing 
more of these. So we have to sort of, I think, begin to take a 
look at what the role is and where the role is in all these 
different kinds of programs so that we do what is appropriate, 
that we do not find ourselves doing things that could logically 
be done locally. I am not suggesting this one could, but I 
think that is an issue that we have to look at in all these and 
make sure that there is an appropriate for the Federal 
Government.
    Mr. Smith. Mr. Chairman, you are exactly correct. And this 
one, again, with the amendment to keep the authorized ceiling 
for the annual appropriations low, would say that there is a 
Federal role but it also does require a partnership role from 
State and local governments, from nonprofits, from interested 
citizens, and certainly that is the model we are looking for. 
So we certainly agree, those of us who look at these bills in 
the Department and at OMB. We do consider that they do carry 
costs and it is a concern of ours too. The testimony here says 
it is important, but we would reduce the role of the Federal 
dollar going toward the commission and hope that it would get 
support from State and local governments and nonprofits.
    Senator Thomas. Well, I think we ought to keep working at 
this. As you know, we just tried to define what heritage areas 
ought to be. Of course, I understand in each one people have 
different views, and it is not as black and white as it could, 
but we need to do that.
    Wild horse. I am a little confused about this. Now, are you 
going to end up with a minimum number of horses that you would 
like to keep there, or does your suggested amendment change 
that?
    Mr. Smith. Mr. Chairman, when the bill was passed by 
Congress in 1998, we were taking a herd that had been at about 
187 horses, was very sick with certain equestrian diseases and 
whatever else. And the original act stated that we would put 
the herd through a very major veterinarian type of review that 
was done by the State. As that herd was culled, for all the 
right reasons, as far as healthy animals, it came down at that 
time that we thought the best number that the herd would be 
able to sustain was about 100.
    That herd has been studied by both an expert in horses from 
Kentucky and an expert in horses from Princeton, and they have 
been down there with field teams every year through the 1990's 
and through this last year. They are there every year. Those 
horses, through hurricanes and whatever else--they now really 
feel that the viability of that herd is to be able to have a 
maximum of 130 horses on those Shackleford Banks.
    What they do now is they have a wonderful program, the 
Shackleford Banks Horse Association. When they do need to 
remove either sick or over-number horses, they do have a 
workable adoption program, a little bit different than maybe 
what you are used to with the wild horses in the West, but they 
are able to move those horses off the island and to have them 
adopted or to care for them at their center. The 130 horses 
from both of these university studies, very scientific--they 
have come to the conclusion that 130 is the manageable number 
to work with. They can adjust to that and keep this herd very 
healthy and very viable.
    And if you ever get a chance to see it, Mr. Chairman, they 
are absolutely marvelous, little, miniature horses that somehow 
survive on those outer banks. Through hurricanes, they hunker 
down. Through dry weather or whatever, they have been there for 
300 or 400 years, and they are an amazing cultural and historic 
resource for that part of the country.
    Senator Thomas. Did they hunker down here lately?
    [Laughter.]
    Mr. Smith. The last storms missed them, but--what is our 
one from 2 years ago? Isabel. When Isabel did what it did to 
the east coast, they lost one mare, one young colt, and one 
mare and one colt swam about 2 miles across the inlet to get to 
safety. They are amazingly resourceful, and we hope that this 
bill continues to protect them out there on the banks.
    Senator Thomas. I guess this is a different location, but 
normally you evaluate the resource that is available for feed 
and this and that and sort of set a scientific number. Is it 
unusual to legislate the numbers that ought to be grazing here?
    Mr. Smith. Senator, unusual but not unprecedented. It was 
done at Ozark National Riverway in a situation sort of like 
this where those horses have a cultural and an historic meaning 
to the people, and the Park Service was managing them, actually 
calling them feral horses. People who live in these localities 
do not consider them feral. They consider that they have been 
there longer than most people have been.
    It is amazing that these horses do survive with the 
vegetation that is there. Of course, that is what dictates 
their size, being very small and whatever else. But any 
assessments that would be done--they have survived in that 
natural habitat for 300 years. So for anybody to really study 
it, they have been a major part of it that entire time.
    And the reason for this to be legislated rather than 
administratively done, as would normally be the case, the 
general management plan at one time for this unit of the park 
system, Cape Lookout National Seashore, considered eradicating 
them just as it would feral pigs or feral cows or whatever. And 
the people on the banks have long memories and this basically 
gives assurance that we will manage in accordance with a law 
rather than somebody being, at some time later, able to change 
the policy. It is an amazing history of what has happened down 
there on this, and that is why the administration does support 
a number rather than thinking we can do it administratively 
because of that long history and actually feeling that the Park 
Service might not manage to a number unless Congress legislated 
it.
    Senator Thomas. If you had some sort of a change in the 
vegetation, you might have to come back to reduce them to the 
amount of resources available.
    Mr. Smith. That is probably true, but I will tell you those 
banks--they move south and east, and they move all around, but 
somehow they all make do through storms and climate and 
whatever. They are amazing.
    Senator Thomas. Yes, it must be interesting.
    We are thinking of a number in Wyoming, but it would be not 
to exceed a certain number. We seem to have more than we can 
handle.
    At any rate, thank you very much. Appreciate your 
testimony. Thank you for being here.
    Mr. Smith. Thank you, Mr. Chairman.
    Senator Thomas. All right. Let us see. We have panel 2: Mr. 
Mike Fitzgerald, Twin Buttes Ranch, Holbrook, Arizona, and Dr. 
David Gillette, Department of Geology, Museum of Northern 
Arizona in Flagstaff.
    Welcome, gentlemen. Mr. Fitzgerald, would you like to 
begin?

          STATEMENT OF MICHAEL R. FITZGERALD, OWNER, 
              TWIN BUTTES RANCH, LLC, HOLBROOK, AZ

    Mr. Fitzgerald. Sure. Mr. Chairman and members of the 
committee, I am Michael Fitzgerald, owner of the Twin Buttes 
Ranch that borders a large portion of the Petrified Forest 
National Park in Navajo County. I appreciate the opportunity to 
state today my strong support of S. 784. I applaud Senator 
McCain's and Senator Kyl's leadership in sponsoring this 
important legislation and thank the chairman for scheduling 
this hearing. I cannot express how relieved I am that we have 
come to this long-awaited hearing, and I urge the subcommittee 
to act favorably and quickly on this bill.
    My family, which includes my wife Carol and our three 
children, have either lived on or worked this ranch since 1986, 
when we received it as a part of a three-way trade with the 
Federal Government after we felt compelled to cede our former 
ranch located on the eastern side of the park, as part of the 
Navajo-Hopi Relocation Act of 1974. We typically run a 600-cow/
calf operation over the 38,400 acres of the ranch, of which 
about 80 percent is deeded and 20 percent is composed of State 
and BLM lands.
    By the time I had taken title to the ranch, I realized that 
the Park Service was interested in adding portions of the ranch 
to the park. At first, I was not interested in another land 
trade. But over the years, I have learned about the wealth of 
pueblo sites and rock art galleries contained within the ranch 
and, more recently, about the potential to hold fossils of 
great importance to scientific learning about the early age of 
the dinosaurs. I also understand that my maintaining the open 
range has benefited the park and its visitors, whose vistas of 
the Painted Desert and Chinle Escarpment from prominent 
viewpoints along the park's road include large portions of my 
holdings.
    The ranch has remained well protected over the years as a 
result of our cattle ranching operation and its limited access 
from paved roads. Carol and I place a high priority on the 
innate value of the land and its wildlife and we have 
demonstrated this commitment, for example, by providing 
permanent water sources for wildlife. Even though our 
commitment to the land runs deep, we recognize that we cannot 
adequately police the ranch from pot hunters and thieves. And 
we have found we cannot rely on local law enforcement to help 
us combat the rising tide of encroachment by grave robbers. 
Further, because we do not control the mineral rights within 
our ranch, we are powerless to stop commercial-scale mining, 
with track hoes and unreclaimed spoil piles, that render our 
rangeland worthless by others who unearth buried petrified 
logs.
    These factors, combined with the economics of ranching in 
northeastern Arizona, have made us willing sellers, and we wish 
to see the ranch and its scientifically valuable artifacts 
protected within the park. Two years ago, we deferred our 
grazing privileges on the public lands and sold all our cattle. 
As a result of increases in artifact theft, the fluctuating 
beef market and drought, we simply cannot protect the land and 
its important resources as the Park Service could. And we would 
much rather see the ranch kept intact than having to sell it to 
a company that would subdivide it into recreational ranchettes. 
If this were to happen, the important fossils and 
archaeological sites would, of course, be lost.
    I am a willing seller and will consider either a cash 
purchase or land trade with the Federal Government for my 
holdings in the Twin Buttes Ranch, as long as such a sale or 
trade is in my family's best interest. It is my understanding 
that the other primary landowners will also entertain a land 
trade. I will insist on my part, however, that the Government 
purchase my entire ranch and not leave me with an uneconomic 
remnant. It is my understanding that the proposal offered by 
Senators McCain and Kyl, and that is supported by the Park 
Service, accommodates this request.
    In closing, I would like the subcommittee to understand 
that my family has waited patiently for over 12 years to 
establish resolution to the Park Service's proposal to purchase 
the Twin Buttes Ranch. There has been a lot of activity 
regarding this bill over the past 4 years, and this is the 
second Congress to see an expansion bill introduced. At this 
point, we find ourselves needing to make long-term business 
decisions regarding the disposition of our ranch, and I 
respectfully request that you help us to immediately resolve 
this issue.
    Thank you very much for inviting me to be here, and I would 
be very delighted to answer any questions.
    [The prepared statement of Mr. Fitzgerald follows:]

          Prepared Statement of Michael R. Fitzgerald, Owner, 
                   Twin Buttes Ranch, LLC, on S. 784

    Mr. Chairman and members of the committee, I am Michael Fitzgerald, 
owner of the Twin Buttes Ranch that borders a large portion of 
Petrified Forest National Park in Navajo County. I appreciate the 
opportunity to state today my strong support of S. 784. I applaud 
Senator McCain's and Senator Kyl's leadership in sponsoring this 
important legislation and thank the Chairman for scheduling this 
hearing. I cannot express how relieved I am that we have come to this 
long-awaited hearing and I urge the subcommittee to act favorably and 
quickly on this bill.
    My family, which includes my wife, Carol, and our three children, 
have either lived on or worked this ranch since 1986, when we received 
it as part of a three-way trade with the federal government after we 
felt compelled to cede our former ranch, located on the eastern side of 
the park, as part of the Navajo-Hopi Relocation Act of 1974. We 
typically run a 600-cow/calf operation over the 38,400 acres of the 
ranch, of which about 80 percent is deeded and 20 percent is composed 
of state and BLM lands.
    By the time I had taken title to the ranch, I realized that the 
Park Service was interested in adding portions of the ranch to the 
park. At first, I was not interested in another land trade. But over 
the years I have learned about the wealth of pueblo sites and rock art 
galleries contained within the ranch and, more recently, about its 
potential to hold fossils of great importance to scientific learning 
about the early age of the dinosaurs. I also understand that my 
maintaining the open range has benefited the park and its visitors, 
whose vistas of the Painted Desert and Chinle Escarpment from prominent 
viewpoints along the park's road include large portions of my holdings.
    The ranch has remained well protected over the years as a result of 
our cattle ranching operation and its limited access from paved roads. 
Carol and I place a high priority on the innate value of the land and 
its wildlife and we have demonstrated this commitment, for example, by 
providing permanent water sources for wildlife. Even though our 
commitment to the land runs deep, we recognize that we cannot 
adequately police the ranch from pothunters and thieves. And we have 
found we cannot rely on local law enforcement to help us combat the 
rising tide of encroachment by grave robbers. Further, because we do 
not control the mineral rights within our ranch, we are powerless to 
stop commercial-scale mining--with track hoes and unreclaimed spoil 
piles--that render our rangeland worthless by others who unearth buried 
petrified logs.
    These factors, combined with the economics of ranching in 
Northeastern Arizona, have made us willing sellers and we wish to see 
the ranch and its scientifically valuable artifacts protected within 
the park. Two years ago, we deferred our grazing privileges on public 
lands and sold all our cattle. As a result of increases in artifact 
theft, the fluctuating beef market and drought, we simply cannot 
protect the land and its important resources as the Park Service could. 
And we would much rather see the ranch kept intact than having to sell 
it to a company that would subdivide it into recreational ranchettes. 
If this were to happen, the important fossil and archaeological sites 
would be forever lost to science.
    I am a willing seller and will consider either a cash purchase or 
land trade with the federal government for my holdings in the Twin 
Buttes Ranch as long as such a sale or trade is in my family's best 
interest. It is my understanding that the other primary landowners will 
also entertain a land trade. I will insist, however, that the 
government purchase my entire ranch and not leave me with uneconomic 
remnants. It is my understanding that the proposal offered by Senators 
McCain and Kyl, and that is supported by the Park Service, accommodates 
this request.
    The original proposal contained in the park's 1992 General 
Management Plan would not be acceptable to me as it considered adding 
only the highlands portion of my ranch--the Ramsey Slide that contains 
the Chinle Escarpment--while leaving the lowland portions of the ranch 
presumably to be maintained as part of my cattle ranching operation. 
But this proposal was not feasible; as such a configuration would have 
bisected my ranch into two separate and far-removed pastures. It also 
would have greatly constricted my access between the two remaining 
pastures to a parcel of public land over which I would have no control. 
So this earlier proposal would have left me with a significant 
reduction in the number of cattle I could have run on the remaining 
lands, made my management of the ranch extremely difficult and, thus, 
would have left me with an unviable and uneconomic ranch. Therefore, I 
appreciate the fact that Senators McCain and Kyl, and the Park Service 
understand my situation and that their current proposal includes 
purchase or exchange for my entire ranch.
    The idea to incorporate our entire ranch into the park has the 
support of prominent paleontologists and archaeologists that I have had 
the good fortune to work with these past two years. Many important and 
promising paleontological and archaeological sites exist on the Twin 
Butte Ranch that were unknown to the Park Service when they prepared 
their proposal in 1992. This oversight is largely a result of the fact 
that the government did not have access to our private lands.
    Since 1992, when the Park Service first recommended its expanded 
boundary, paleontologists working in the area have discovered the 
immense significance of the upper portion of the Chinle Escarpment for 
their understanding the late Triassic period.
    The Twin Buttes Ranch includes substantial amounts of the upper 
Chinle. In addition, leading archaeologists at Northern Arizona 
University, most notably Dr. Kelley Hays-Gilpin, have mapped extensive 
archaeological sites on the Twin Buttes Ranch that either were not 
known or whose location was not well understood by the Park Service in 
1992. Finally, including my entire ranch into the park would also 
capture miles of healthy riparian areas along the Puerco River, for 
which I understand the Park Service has made restoration and recovery 
of its vital wildlife habitat a high priority.
    In closing, I would like the Subcommittee to understand that my 
family has waited patiently for over twelve years to establish 
resolution to the Park Service's proposal to purchase the Twin Buttes 
Ranch. There has been a lot of activity regarding this bill over the 
past four years and this is the second Congress to see an expansion 
bill introduced. At this point, we find ourselves needing to make long-
term business decisions regarding the disposition of our ranch and I 
respectfully request that you help us to immediately resolve this 
issue.
    Thank you for inviting me to appear before you today and for 
considering my views. I would be happy to answer any questions.

    Senator Thomas. Thank you very much. A couple of quick 
questions and then we will go to Dr. Gillette.
    This acquisition is 128,000 I believe. Your ranch is what?
    Mr. Fitzgerald. It is about 38,000.
    Senator Thomas. I have a little map. Is yours on that 
checkerboard land?
    Mr. Fitzgerald. No. It is that green portion on that map, 
if it is the colored one, on the west side of the Petrified 
Forest part of the park.
    Senator Thomas. But you have had a split estate. Is that 
right? For the minerals and the surface?
    Mr. Fitzgerald. That is correct. I own the surface rights.
    Senator Thomas. Dr. Gillette.

        STATEMENT OF DAVID D. GILLETTE, PH.D., COLBERT 
          CURATOR OF PALEONTOLOGY, MUSEUM OF NORTHERN 
 ARIZONA, AND RESEARCH PROFESSOR OF GEOLOGY, NORTHERN ARIZONA 
                           UNIVERSITY

    Mr. Gillette. Mr. Chairman and members of the committee, I 
am David Gillette, Colbert Curator of Paleontology at the 
Museum of Northern Arizona in Flagstaff, and I am also a 
research professor of geology at Northern Arizona University. I 
have been associated with Petrified Forest for more than 20 
years, conducting scientific research and educational 
activities within the park, and I also participated in the 
production of the general management plan for the park in 1992, 
and I believe that is the most recent general management plan.
    I am testifying today on behalf of the Museum of Northern 
Arizona, the Society of Vertebrate Paleontology, the Sonoran 
Institute, National Parks Conservation Association, Northern 
Arizona University's Department of Anthropology, the city of 
Holbrook, Arizona, the Holbrook Chamber of Commerce, Petrified 
Forest Museum Association, the city of Winslow, Navajo County, 
and a large number of independent scientists, including 
archaeologists and paleontologists in northern Arizona.
    Our organizations appreciate the opportunity to state our 
strong support of S. 784, and we appreciate the critical 
leadership of the sponsors of this important legislation. We 
thank you for scheduling this hearing.
    We enthusiastically urge the subcommittee to act favorably 
and quickly on this bill.
    Mr. Chairman, it is altogether fitting that we should be 
considering this bill today in the same day when we have the 
opening of the National Museum of the American Indian. The 
holdings in the expansion area include some nationally 
significant archaeological sites that have direct bearing on 
the early history of our indigenous ancestors and preservation 
of those is critical in light of recent activities with regard 
to pilfering and unauthorized collections.
    It is also important that we recognize the paleontological 
significance of this area, which is separate from the 
archaeological materials, but especially along the Chinle 
Escarpment we have what would otherwise be a common cliche when 
we say we have world-class resources. But we really do have 
world-class resources because the Chinle Escarpment and the 
Petrified Forest represent the very earliest days of the age of 
dinosaurs. In fact, it is the reference standard for the global 
study of the earliest days of the age of dinosaurs for the 
Triassic Period. This area could, indeed, be called Triassic 
Park.
    More than 220 million years ago, the earth was in 
transition. Pangaea was the world continent and that was the 
dominant landmass. The Atlantic Ocean did not exist. The 
earliest dinosaurs roamed the land.
    We know these things because evidence from this interval of 
geologic time is frozen in the geologic record, and we know it 
best from the Petrified Forest National Park area, including 
the area of the expansion lands. In addition to evidence from 
around the globe, a treasure trove of information can be found 
at Petrified Forest National Park that goes beyond the 
spectacular petrified trees. The petrified logs represent a 
forest, a tropical forest, that is now strewn across a desert 
landscape. Fantastical life forms frozen in the rocks bespeak 
an age that is so alien that it stupefies the imagination. We 
had amphibians like frogs that weighed 500 pounds. We had 
predators as large as crocodiles with 4-foot-long skulls and a 
battery of teeth that drove the evolution of the fleet-footed 
dinosaurs. Nearly 100 years after its establishment as a 
national monument by President Theodore Roosevelt, we now know 
that few places in the world contain such a rich fossil record 
of animals as well as the trees that have been preserved at the 
park.
    This bill would add more than 100,000 acres, including 
lands that encompass virtually the entire Chinle Escarpment. It 
contains a priceless natural heritage of fossils and artifacts. 
They are being today systematically pilfered. Black market 
dinosaur bones and archaeological artifacts bring thousands of 
dollars on the commercial market. Grave robbers supply that 
black market with artifacts from areas so remote even the cows 
get lost. Treasure hunters seeking pots and burial items held 
sacred by Arizona's Native Americans have looted site after 
site in this area.
    These archaeological and paleontological stories should be 
developed in the interest of all Americans. This national 
inheritance cuts to the core of our existence as citizens and 
leaders. The mission cannot be conservation and protection 
alone. Preservation without education is like a library under 
lock and key. Here in the Petrified Forest area we can tell 
gut-wrenching stories of predator-prey interactions, floods 
that carried trees as large as giant redwoods into colossal 
logjams. This represents the very humble beginnings of our 
modern ecosystem. We cannot afford to lose these stories or the 
ability to share them. This is our national natural laboratory.
    Petrified Forest National Park and the expansion area hold 
the keys to education in the raw. This is the full surround 
sound, sunburn, flash flood experience. Here we teach teachers 
and students alike. We work elbow to elbow. Everybody is equal. 
We are all in this together. This is hands-on dinosaur 
excavations and application of technology to map archaeological 
sites. We can use high technology for remote sensing, and we 
can use traditional techniques of labor for the down and dirty 
work of hoisting 1,000-pound blocks of rock encased in burlap 
and plaster that contain dinosaur skeletons. This is the 
training ground for our next generation of scientists, 
historians, business executives, teachers, and yes, even 
politicians.
    Education is the only solution to understanding our modern 
world. This is the real experience. We teach the scientific 
method. We become professional skeptics. We test our 
understanding with discoveries of new sites and new fossils. At 
the Petrified Forest, the time dimension is the critical 
missing link. Can we understand the logs? Can we place them in 
perspective? Can we see the forest?
    In conclusion, Mr. Chairman, I would simply say that 
tragically every day prehistoric archaeological sites, 
historical sites, and paleontological sites in the United 
States are lost forever, along with the precious information 
they contain. We have the ability, the opportunity, and the 
responsibility to prevent this loss of our heritage, a loss 
that impoverishes both present and future generations. Promptly 
enacting S. 784 into law will be a marvelous and tangible step 
forward to meet these duties. Future generations will thank you 
for your wisdom to act now.
    Thank you for inviting me to appear before you today and 
for considering our views. I would be happy to answer any 
questions.
    [The prepared statement of Mr. Gillette follows:]

  Prepared Statement of David D. Gillette, Ph.D., Colbert Curator of 
  Paleontology, Museum of Northern Arizona, and Research Professor of 
            Geology, Northern Arizona University, on S. 784

    Mr. Chairman and members of the committee, I am David Gillette, 
Colbert Curator of Paleontology at the Museum of Northern Arizona in 
Flagstaff, Arizona. I am testifying today on behalf of the Museum of 
Northern Arizona, The Society of Vertebrate Paleontology, The Sonoran 
Institute, National Parks Conservation Association, Northern Arizona 
University's Department of Anthropology, City of Holbrook, Holbrook 
Chamber of Commerce, Petrified Forest Museum Association, City of 
Winslow, and Navajo County. I am also submitting for the record letters 
and resolutions from a number of these parties, as well as others who 
support this legislation.
    The Museum of Northern Arizona is a private, non-profit museum 
dedicated to research, collections, education, and outreach in cultural 
and natural sciences of the Colorado Plateau. Established seventy-five 
years ago, MNA has been deeply involved with archaeology and 
paleontology in the national parks throughout its existence.
    NPCA is a non-profit citizens' organization, founded in 1919, 
dedicated to the protection and enhancement of the National Park 
System. NPCA has approximately 300,000 members, including 6,850 in the 
State of Arizona.
    The Sonoran Institute is a non-profit organization that works 
collaboratively with local people and interests to conserve and restore 
important natural landscapes in western North America, engaging 
partners such as landowners, public land managers, local leaders, 
community residents, and nongovernmental organizations.
    The Society of Vertebrate Paleontology is a non-profit organization 
of professional and avocational paleontologists, with an international 
membership of approximately 2000. The SVP has worked actively to 
promote responsible stewardship of paleontological resources on public 
lands.
    Our 10 organizations appreciate the opportunity to state our strong 
support of S. 784. We appreciate the critical leadership of Senators 
McCain and Kyl in sponsoring this important legislation and thank the 
Chairman for scheduling this hearing. With enthusiastic support from 
all the major landowners, the State of Arizona, local governments, 
chambers of commerce, and scientists nationwide, we urge the 
subcommittee to act favorably and quickly on this bill.
    More than 220 million years ago, the Earth was in transition. 
Pangaea, the World Continent, was the predominant landmass, the 
Atlantic Ocean did not exist, and the earliest known dinosaurs roamed 
the land.
    We know these things because evidence from this interval of 
geologic time, called the Triassic Period, is frozen in time. In 
addition to evidence from around the globe, a treasure trove of 
information can be found at Petrified Forest National Park in 
northeastern Arizona. A vast forest of petrified logs, strewn across 
what is now a desert landscape, and fantastic life forms frozen in 
stone bespeak a time when a tropical swamp, filled with 200-pound 
ancestors of frogs and salamanders, and enormous crocodile-like beasts, 
existed where there is now arid, open land.
    Petrified Forest National Park, originally proclaimed a national 
monument by President Theodore Roosevelt in 1906, was designated a 
national park in 1962 and receives about 600,000 visitors each year. 
The park originally was set aside to preserve the spectacular 
concentrations of rainbow-hued petrified wood, scenic landscapes of the 
Painted Desert, rare shortgrass prairie, and more than 500 
archaeological and historical sites that reflect a 10,000-year 
continuum of human history. We now know that few places in the world 
contain such a rich fossil record of the Triassic Period. The Petrified 
Forest National Park could easily claim the title ``Triassic Park'' for 
its plant and animal fossils that represent the very roots of dinosaur 
history.
    Recent scientific work has revealed that petrified wood is only one 
part of the globally significant record contained within the Chinle 
Escarpment, the name given to the geological formation containing the 
``mineralized remains of the Mesozoic forest'' that the park was 
established to protect. Only six miles of the 22-mile-long escarpment, 
which contains the world's most significant record of late Triassic 
Period fossils, is currently within the park. The area outside the park 
may contain more and better fossils that can more readily increase our 
understanding of flora and fauna and the changing climatic and tectonic 
conditions on Earth during that era. It also presents a unique 
opportunity to educate the public. According to the current director of 
the New Mexico Museum of Natural History and Science, Dr. Adrian Hunt, 
Petrified Forest National Park is the most important place in the world 
to study the early evolution of dinosaurs, an assessment with which I 
heartily agree.
    S. 784 would add approximately 128,000 acres, including lands that 
encompass virtually the entire escarpment. These lands contain a 
priceless natural heritage of fossils and artifacts that are being 
systematically pilfered. Grave robbers supply the black market with 
artifacts from areas so remote even the cows get lost. Treasure hunters 
seeking pots and burial items held sacred by Arizona's Native Americans 
have looted site after site. Fossils in the same area have come under 
similar pressure; dinosaur bones can bring thousands of dollars on the 
commercial market, but once they are removed, they are forever lost to 
science and the public domain. These activities led NPCA to place 
Petrified Forest National Park on its list of Ten Most Endangered Parks 
in 2000 and 2001. Since that time, the park has engaged in fruitful 
efforts to significantly reduce theft of petrified wood from within its 
boundaries, prompting NPCA to remove it from the endangered list in 
2002. With the advent of high tech, low-cost mobile sensors and other 
non-intrusive measures aimed at educating and redirecting well-meaning 
park visitors, the Park has demonstrated that it is now in a much 
better position to protect this wealth of resources.

                              STATE LANDS

    Slightly more than half of the lands within the proposed expansion 
areas currently are in private ownership, and 45 percent are in state 
or federal ownership. The State of Arizona and the Bureau of Land 
Management recognize the significance of the paleontological resources 
on their lands and have expressed an interest in seeing them preserved 
In her letter to House National Parks, Recreation and Public Lands 
Subcommittee Chairman George Radanovich (in which she cc'd Senators 
Thomas and Akaka) dated February 19, 2004, Governor Janet Napolitano 
wrote: ``Seldom does an opportunity arise to more fully protect an 
incredible national treasure like Petrified Forest with such broad, 
unequivocal support at the local, state and national levels.'' .\1\ In 
that same letter, the State suggested a language change to the bill 
that the organizations I am representing here today all support. In 
addition, on May 28, 2004, the State closed approximately 36,000 acres 
adjacent to the park to both surface and subsurface applications to 
better protect these lands until they are added to the park.
---------------------------------------------------------------------------
    \1\ Letter from Arizona Governor, Janet Napolitano, to National 
Parks Subcommittee Chairman George Radanovich, dated February 19, 2004
---------------------------------------------------------------------------
    State lands within the park expansion proposal contain a wealth of 
paleontological and archaeological resources. For example, state lands 
within the Twin Buttes Ranch contain numerous unique and highly 
detailed petroglyph panels dating from 600 to 1,000 years before 
present. One such panel appears to be a map of the constellations 
visible in the night skies each April. This panel has been photographed 
for the book Tapamveni: The Rock Art Galleries of Petrified Forest and 
Beyond and has been referred to as a work of ``remarkable geometric 
intellect.''
    The State lands also include a significant amount of the Chinle 
Escarpment that is such an important addition to the park, by virtue of 
the world-class paleontological resources it contains. State lands 
along the Chinle Escarpment east of the park also contain a rare 
Chacoan Culture Great House dating back some 1,000 years to between 
A.D. 900 and 1130. This pueblo ruin maintains the distinctive ``core 
and veneer'' masonry of the Chacoan Culture, whose ceremonial center 
was located in northwestern New Mexico, and the great house included in 
the park expansion proposal is thought by some scholars to define the 
southwestern edge of the Chacoan system. Understanding of this system 
has become one of the most significant questions in Southwest 
archaeology and the inclusion of this great house into the park will 
protect the site's context and likely will enhance scientific 
understanding of this remarkable culture. State lands are, to varying 
degrees, intermingled with the ranches of all four primary landowners.

                             PRIVATE LANDS

    Most of the private lands adjacent to the park have been managed as 
part of large cattle ranches for the past 120 years. This use of the 
land has preserved the scenic views seen from the park. However, this 
land use pattern is starting to change. More intensive land uses, such 
as subdivisions and mineral exploration and mining--including 
mechanized petrified wood mining on private lands--threaten to both 
destroy the scenic quality of the park and destroy irreplaceable 
resources.
    Four major landowners together own approximately half the total 
acreage of the expansion area, and all are highly supportive of the 
legislation and wish to see the cultural and scientific resources on 
their properties included in and protected by the National Park System. 
They have been patient since the Park's General Management Plan 
recommended expansion in 1992, but cannot be expected to wait 
indefinitely while other development offers come their way. In fact, 
history demonstrates that delay poses further risks for this land. The 
private lands identified in 1992 in the park's GMP were, at that time, 
held almost exclusively by 6 landowners. Since then, two of those 
landowners have subdivided and sold their holdings, and a portion of 
those lands is unfortunately not included in the current proposal.
    Expansion lands formerly owned by the New Mexico and Arizona Land 
Co and now owned by Mr. Bob Worsley contain the Wallace Tank Ruin, an 
immense Pueblo IV period ruin dating from about A.D. 1200 to 1325. The 
pueblo contains an estimated 400-600 rooms. Looting has occurred at 
this site, including looting with the use of heavy equipment. 
Nonetheless, archaeologists believe that 90% of the architecture is 
intact. These Pueblo IV sites in the Western Pueblo region are quite 
rare and they are critical in understanding how the Western Pueblos 
(Hopi, Zuni, Acoma, and Laguna) came to be.
    On the Twin Buttes Ranch, owned by Mr. Mike Fitzgerald, four Canyon 
Butte sites dating from about A.D. 1130 to 1325 (during the Pueblo III 
period) contain from 25 to 65 rooms each. These sites, originally 
recorded by Walter Hough of the Smithsonian Institution in 1901, 
represent the small hamlets that would later coalesce into large 
pueblos like Wallace Tank. More detailed analysis of these sites and 
their associated artifacts will allow them to be more precisely dated 
and will provide important information on the regional interactions 
that led to settled village life.
    On the Paulsell Ranch expansion lands owned by Mr. Marvin Hatch, a 
researcher from the University of Texas discovered a fully intact 
phytosaur while on a dig in 2002. Phytosaurs were large, aquatic 
reptiles that were prevalent in the Petrified Forest of Triassic times. 
Also contained on these lands are Triassic era clamshell beds; the 
thickest that many paleontologists have ever seen. The Paulsell Ranch 
contains extensive portions of the Upper Triassic Chinle Formation. 
According to the park's 1992 General Management Plan, the lateral 
exposures of the Chinle Escarpment are most likely the best exposure of 
this geologic sequence in the world. Paleontologists are convinced that 
the escarpment's fossil resources are globally significant and that it 
has the potential to become the paleontological ``gold standard'' for 
late Triassic terrestrial life, since the fossil bearing rocks exposed 
here are even more continuous than those inside the park, which are now 
setting the standard. Other researchers have labeled the Hatch Ranch a 
``priceless outdoor lab for geologists, archaeologists, biologists, 
paleontologists and ecologists'' and of ``inestimable paleontological 
and geological importance.''

                        BRINGING SCIENCE TO LIFE

    These stories should be developed in the interest of all Americans. 
This national inheritance, both within the modern boundaries of the 
park and in the expansion area, cuts to the core of our existence as 
citizens and leaders. With leadership and vision, our parks and 
monuments can move to center stage where we need help the most--in 
solid, hard-nosed education. The mission cannot be conservation and 
protection alone, for preservation without education is like a library 
under lock and key.
    Petrified Forest is filled with information that could unlock a 
bonanza of secrets about current challenges, such as biodiversity, 
ecosystem health, the importance of fire to the health of an ecosystem, 
and endangered species. Gut-wrenching stories of predator-prey 
interactions, floods that carried trees as large as giant redwoods into 
colossal log jams, and the humble beginnings of our modern world can be 
pried from the rocks at Petrified Forest National Park and the 
expansion areas. We cannot afford to lose these stories or the ability 
to share them. This is our natural laboratory.
    Petrified Forest National Park, and the expansion area around its 
current perimeter, hold the keys to education in the raw, the full 
surround-sound, sunburn, and flash flood experience. Here we can teach 
teachers and students alike, elbow to elbow, with hands-on dinosaur 
excavations, application of Global Positioning System to mapping 
archaeological sites, high technology remote sensing, and the down-and-
dirty work of hoisting thousand-pound blocks of rock encased in burlap 
and plaster that contain dinosaur skeletons. This is a training ground 
for the next generation of scientists and politicians, historians and 
business executives. Education is the only solution to understanding 
our modern world. This is the real experience, where we teach the 
scientific method, where we become professional skeptics, where we can 
test our understanding with discoveries of new sites and new fossils.
    Modern technology makes our natural laboratories accessible to 
everyone. Why accept replicas and models? Our mission must be to 
educate our public first. At the Petrified Forest, the time dimension 
is the critical, missing link. We can understand the logs, but can we 
place them in perspective? Can we see the forest? I recently had the 
remarkable good fortune to participate in a live broadcast from my 
paleontology laboratory in Flagstaff to classrooms across North 
America, from Florida to Alaska. Students called in and asked their own 
questions. Some were so excited they could scarcely talk into the 
telephone. They watched us on their television screens, and listened. 
to our answers. We were ordinary people who were excavating an 
extraordinary dinosaur. Our laboratory became theirs. We were 
transported live to schools across the continent, and those students in 
turn were transported to our laboratory in Flagstaff.
    Now, at one of our national parks, Petrified Forest, we have the 
unique opportunity to enlarge and amplify that experience and build our 
future from the raw materials of field-based scientific exploration.

                               CONCLUSION

    In conclusion, Mr. Chairman, I would simply say that tragically, 
every day, prehistoric and historic archaeological and scientific sites 
in the United States are lost forever--along with the precious 
information they contain. Congress has the ability, the opportunity, 
and the responsibility to prevent this loss of our heritage, which 
impoverishes both present and future generations. Promptly enacting S. 
784 into law will be a marvelous and tangible step forward to meet 
these duties. Future generations will thank you for your wisdom to act 
now.
    Thank you for inviting me to appear before you today and for 
considering our views. I would be happy to answer any questions.

    Senator Thomas. All right, sir. Thank you very much.
    Where is this relative to Phoenix, for example?
    Mr. Gillette. North and a little west. I am sorry. North 
and a little east.
    Senator Thomas. You already have 95,000 acres to work on. 
What will this additional do to you? Is it the same thing? 
Expanding the same materials?
    Mr. Gillette. Virtually all of the private land and most of 
the public land in the expansion area have been off limits to 
scientific investigations because ranchers, frankly, have not 
wanted paleontologists and archaeologists on their land and 
they have not wanted anybody on their land. In this area, the 
lands are virtually untouched from pilfering for fossils, 
although they are being decimated by pilfering for artifacts.
    But along the Chinle Escarpment, we have exposures of 
continuous rocks in the Chinle formation that now hold the 
secrets to questions we have been able to formulate from within 
the park. This becomes a substantial international laboratory.
    Senator Thomas. But it is just more of the same thing, is 
it not?
    Mr. Gillette. No. There are more exposures and greater 
thickness of rocks there than in the park.
    Senator Thomas. What generally, Mr. Fitzgerald, are the 
other owners like over on this checkerboard? What kind of 
private owners have those?
    Mr. Fitzgerald. I am probably the only one, other than Bill 
Jeffers who has just a small portion going--I am a fifth 
generation rancher, so to speak, and this is my life. This is 
my way of life. I do not want to give it up, but it is 
necessary at this point. Mr. Worsley, who owns the Milky Ranch 
to the southeast is a billionaire who owned this sky mall 
thing. Then Mr. Hatch is a businessman, a rancher, and has 
branched out into various other businesses as well.
    Senator Thomas. So relatively few owners in the area.
    Mr. Fitzgerald. Oh, yes. We just mentioned four of us.
    Senator Thomas. I guess that is about it. I do not know 
exactly, as was asked before, what we will be able to do this 
year. Perhaps we can move it if we have a chance. We might have 
a markup. If not, why, I think at least the hearing materials 
will go on over into the first part of next year and we could 
continue to move forward.
    So I appreciate your all taking time to be here. If anyone 
has any questions, we will leave the record open for 2 weeks in 
case somebody has some questions and would like to get in touch 
with you. Otherwise, thank you very much.
    We will close the hearing.
    [Whereupon, at 3:25 p.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

                        Departmnet of the Interior,
           Office of Legislative and Congressional Affairs,
                                  Washington, DC, December 2, 2004.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: Enclosed are answers to the follow-up questions 
from the hearing held by the Subcommittee on National Parks on 
September 21, 2004, on S. 784, S. 2656, S. 2499, S. 1311, and H.R. 
2055. These responses have been prepared by the National Park Service.
    Thank you for giving us the opportunity to respond to you on this 
matter.
            Sincerely,
                                             Jane M. Lyder,
                                               Legislative Counsel.
[Enclosure.]
                      Questions from Senator Akaka
    Question 1a. S. 784, Petrified Forest Expansion: The bill 
authorizes acquisition of over 120,000 acres of land. The Federal 
government already owns a lot of land in the west and we need to be 
thinking about no net gain whenever land is acquired.
    Has the National Park Service examined the possibility of a land 
exchange instead of fee simple purchase?
    Answer. The boundary adjustment includes lands privately-owned, 
those owned by the United States and managed by BLM, and state-owned 
lands. BLM manages approximately 14,500 acres, which could be 
administratively transferred to NPS management should this bill be 
enacted. All four of the private landowners who could be involved in 
the expansion have indicated an interest in a combination of exchanges 
and purchase. However, as stated in our testimony, ranching is becoming 
more and more difficult with drought and other factors, and some of the 
owners have expressed interest in selling their land, either to NPS or 
other parties. These other potential purchasers may have interests that 
conflict with or impact resources valuable to the park. With regard to 
state-owned lands, the Arizona Supreme Court has determined that the 
Arizona Constitution prohibits the disposal of certain state land 
except through auction to the highest and best bidder. Given these 
remaining issues, we would have to await a determination on how the 
citizens of Arizona and their representatives would recommend 
proceeding should this bill be enacted.
    Question 1b. Has the National Park Service prioritized the land 
proposed for acquisition so that only parts of it could be acquired 
instead of the entire 120,000 acres?
    Answer. The 1990 GMP lists priorities for the approximately 93,000 
acres that were proposed as a boundary expansion in that document. As 
of now, these are the priorities identified in the GMP:

        Chinle Escarpment (Fitzgerald & Hatch)
        Key Archeological Sites (Worsley & Jeffers)
        Visual Resource Protection (Jeffers--West Rim of the Painted 
        Desert)

    S. 784 also would direct the Secretary to revise the park's GMP. 
Land acquisition priorities could be established as part of that 
process and a Land Protection Plan could be completed. Since the 
original GMP was completed, we have acquired additional information 
about park resources, which would be considered. Also, relationships 
with the owners have improved and we have had better access to 
determine what areas near the park boundary may be more critical than 
other areas. The 1990 priorities are a place to start, but they will 
need to be revisited with the new knowledge we have acquired about 
these areas.
    Question 2. S. 784, Petrified Forest Expansion: Have County or 
Tribal officials expressed support for the proposed legislation?
    Answer. We have letters of support from the City of Winslow, City 
of Holbrook, Navajo County Board of Supervisors, 4 landowners, Society 
of Vertebrate Paleontology, and other professional societies.
    We have had informal consultation with two tribes (Hopi, Navajo). 
Neither have taken a public position on the proposal:
    Question 3. S. 784, Petrified Forest Expansion: What is the 
estimated cost to acquire the private and state land covered by this 
bill?
    Answer. We estimate that there would be 79,500 acres of private 
land within the proposed boundary expansion that could be acquired. 
Based upon appraisals recently conducted by the Department of the 
Interior the average cost per acre for these lands is between $105 and 
$175. If all of the private land within the boundary expansion were 
acquired in fee, the estimated costs could range from $8,347,500 to 
$13,912,500. Acquisition through exchange, donation, or purchase of 
easements could reduce the cost.
    The Arizona constitution prohibits the disposal of State-owned 
lands except through auction to the highest and best bidder. We 
suggested amendments in our testimony that might help resolve the issue 
of management of State-owned lands, however, with regard to 
acquisition, we would have to await a determination on how the citizens 
of Arizona and their representatives would recommend proceeding should 
S. 784 be enacted.
    Question 4a. S. 784, Petrified Forest Expansion: Congress 
appropriated $2 million in 2000 to use for acquisition of property in 
the proposed expansion area. The money could not be spent until 
authorizing legislation was enacted. We have heard that BLM may have 
spent the money for wildfire suppression.
    Is $2 million currently available for use towards acquisition of 
this land if the proposed authorizing language is enacted?
    Answer. The $2 million was appropriated to the Bureau of Land 
Management's Land Acquisition Appropriation in FY 2001. This funding 
was used, along with other Land and Water Conservation Fund (LWCF) 
funding, to pay for fire suppression costs in FY 2003. Some, but not 
all, of this funding was restored, reducing the total available to $1.6 
million. The agencies in the Department have been under increasing 
pressure by the House and Senate Interior Appropriations Subcommittees 
to spend unobligated LWCF balances. Because there was no imminent deal, 
earlier this year BLM, with the approval of the House and Senate 
Interior Appropriations Subcommittees, reprogrammed these funds for use 
in the acquisition of conservation easements within Idaho's Upper 
Snake/South Fork Snake River Area of Critical Environmental Concern/
Special Recreation Management Area, which is a high priority 
acquisition area for the Administration.
    Question 4b. What steps are necessary after enactment of the 
authorizing legislation before actual acquisition of property can 
begin? How long do you think it would take to complete those steps?
    Answer. NPS would develop priorities and if appropriations are made 
available, we would negotiate with landowners. If funds were available 
and all landowners were willing sellers, and the ``due diligence'' was 
completed, acquisition could be completed in 1-2 years. Due diligence 
includes researching title, conducting hazmat surveys, and completing 
appraisals. For large ranches, hazmat surveys could cost as much as 
$100,000 each, and appraisals $30,000 each. With land resources 
programs now centralized, each step could take 6 to 8 months to 
complete. This estimate is for privately held land and for the 4 
primary owners. A portion of the area proposed for addition is composed 
of multiple, small landowners (North of the Rio Puerco River). This 
area could take longer to complete.
    State lands are not included in these estimates. As we have 
mentioned, State law prohibits lands to be donated, and it is our 
understanding that the Arizona Supreme Court has determined that the 
Arizona Constitution prohibits the disposal of certain state land 
except through auction to the highest and best bidder. Given these 
remaining issues, we would have to await a determination on how the 
citizens of Arizona and their representatives would recommend 
proceeding before we could complete ``due diligence'' on these lands.
    Question 5. S. 784, Petrified Forest Expansion: The bill allows 
grazing to continue on land acquired by the National Park Service for 
addition to the park Is cattle grazing currently allowed in the 
existing boundary of Petrified Forest National Park? If so, how many 
acres?
    Answer. Grazing does not exist within current park boundaries.
    Question 6. S. 2656, Ponce de Leon Commemoration Commission: Is it 
customary for the National Park Service to be the lead agency for 
implementing authorizing legislation for commission of this type?
    Answer. Yes. Often the National Park Service is directed to assume 
the lead on the Commission when the proposed legislation represents an 
historical theme.
    Question 7. S. 2656, Ponce de Leon Commemoration Commission: How 
many other commemorative commission laws is the National Park Service 
currently implementing and how much has been authorized for 
appropriation for each?
    Answer. Since 1997 there have been six Commissions enacted. Three 
of these Commissions authorize such sums as may be necessary to carry 
out the duties of the Commission. The remaining three have authorized a 
total of $7.5 million for the life of the Commissions. In addition to 
the Commissions that have been established, during the same time period 
there have been at least five additional Acts that either extended or 
made corrections to existing Commissions. These Acts did not authorize 
additional funds. In addition to S. 2656 and S. 1311, there are three 
additional bills involving Commissions that have been introduced in the 
108th Congress.
    Question 8. S. 2499, Harry Truman Historic Site Boundary 
Adjustment: Other than the property included in S. 2499; has any other 
land been identified for future addition to the Harry S Truman Historic 
Site?
    Answer. No. This is the last 5 acres of undeveloped land of the 
original 600-acre Truman Farm and is the only acquisition priority for 
this park. No other land in the area has historic significance that 
would qualify for addition to the historic site.
    Question 9. S. 1311, Hudson-Fulton-Champlain 400th Commemoration 
Commission: What type of events do you expect to be conducted to 
commemorate the accomplishments of Hudson, Fulton, and Champlain?
    Answer. If established, the Commission might sponsor or facilitate 
a full range of celebrations and events at the local, state, regional 
and national level to commemorate the accomplishments of Hudson, Fulton 
and Champlain. The commission might also sponsor or support scholarly 
research, symposia, and papers regarding the importance of the 
explorations and steamboat to the history of the region and to the 
United States. The commission would be authorized to develop a coin(s) 
to commemorate these individuals, as well as assist in the development 
and implementation of interpretive exhibits at strategic venues and 
waysides along the routes and at landing sites traversed by the 
explorers and Fulton. These functions would not only commemorate the 
successes of these three individuals but would also explain the 
meanings of their contributions to modern society. Assistance in and 
development and dissemination of educational materials could also be a 
major activity. The National Park Service could be involved through 
activities coordinated through the Hudson River Valley National 
Heritage Area.
    Question 10. S. 1311, Hudson-Fulton-Champlain 400th Commemoration 
Commission: Would it be more appropriate for the State rather than the 
Federal government to sponsor such a commission and conduct special 
events?
    Answer. The states in the region that is the focus of the 
Commission (NY, NJ and Vermont) do plan to take an active role in 
commemorating this effect. The Federal government has, in the past, 
sponsored multi-state commissions, as well as encouraged and assisted 
national commemorative events.
    Question 11. S. 1311, Hudson-Fulton-Champlain 400th Commemoration 
Commission: If the State has already established a Hudson-Fulton-
Champlain Commission, why is a Federal Commission needed?
    Answer. New York and Vermont have each established commissions for 
these commemorations. A Federal commission could promote coordination 
between the various State activities and extend the commemorative 
activities to other parts of the nation. Similar federal commissions 
were established for commemorations of Hudson, Fulton and Champlain's 
accomplishments in 1909 and 1959.
    Question 12a. H.R. 2055, Cape Lookout Wild Horses: The bill 
specifies that at least 110 wild horses shall be allowed to roam freely 
on Cape Lookout.
    Is it common for the Congress to legislate specific resource levels 
in National Parks?
    Answer. It is not common, but as the Department's witness answered 
at the hearing, Congress has done this in the past. At Ozark National 
Scenic Riverways, for example, Congress set specific limitations on the 
quantity of resources in the management of horses.
    Question 12b. Can this be worked out in a management plan for Cape 
Lookout instead of in legislation?
    Answer. This could be done administratively, but as the 
Department's witness answered at the hearing, management plans often 
become contentious, can take years to complete, and can be changed, 
modified, or even reversed by subsequent plans.
    Question 13. H.R. 2055, Cape Lookout Wild Horses: The National Park 
Service has recommended a technical amendment to the bill. Is the 
amendment absolutely necessary or can the Park Service live with the 
bill in its current form?
    Answer. As the Department testified at the hearing, the Department 
supports the bill's efforts with a technical amendment.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                         Twin Buttes Ranch,
                                     Holbrook, AZ, October 5, 2004.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Honorable Senator Thomas: This is a reply to your letter of 
September 21, requesting my opinion about the possibility of grazing on 
the Petrified Forest National Park. This has to do with S. 784. I'm 
sorry that your letter only reached me yesterday, or I would have 
replied sooner.
    To answer your first question, this country used to carry 
approximately 10 cow calf units per square mile. This was before the 
drought became so severe in the mid Nineties, and continues on to this 
day. I sold the last of my cattle in January of '02. I know you 
understand ranching in Wyoming, well Northeastern Arizona is not all 
that different from parts of your state, as I'm sure you know.
    To answer your second question, as to my opinion about grazing on 
the Park. I must answer a reluctant ``No''. In the long run it would 
not be good. Your current Park Superintendent, Mr. Lee Biaza, is the 
best man this park has ever had in this position. But even he would 
probably have to give under the pressure of various naturalist and 
environmental groups. Also, he will probably only be here a few more 
years before he is replaced by who knows. I managed a grazing allotment 
on the National Forest for 10 seasons. Please, believe me, the change 
of personnel changes everything, from a man like Biaza with his feet on 
the ground to an environmentalist with their Socialistic ideals. I can 
remember helping my neighbor, Pat Paulsell, drive cattle across the 
Petrified Forest when I was 5 years old. I think we received more 
attention from the tourist of the mid-1950s than the sites of what was 
then a National Monument. So I have been aware of the problems of being 
a neighbor of this Park all my life. I'm sure from your opinion, Mr. 
Chairman, and mine as well, it would be better for the wildlife as well 
as the country in general to keep cattle on it. However, relating these 
practical truths to the population in general is not an easy 
undertaking. We presented our reasons for the expansion of the Park as 
a need to protect ``world class'' archaeological sites and artifacts, 
paleontological attributes, and viewshed. I could have talked for an 
hour or more at the hearing about the problems relating to cattle 
ranching in this nation at this time.
    If your questions are in anyway relating with what to do about 
government lands, my ranch is 80% deeded with only a few sections of 
BIM and State lands scattered throughout. It would be impossible to do 
anything different with any portion of it. The other ranches with their 
Checkerboarded deeded are State lands would be very similar since you 
can't graze in one place and not the other without fences and water. In 
my opinion then, if it is to be a National Park then the Park Service 
must take care of it. Ranching on the other hard should be done on 
private land since we ranchers are such individuals with our differing 
opinions on how things should to done.
    Thank you for your kind interest in our situation. We are looking 
forward to hearing that S. 784 has been passed by the Senate very soon.
            Sincerely,
                                     Michael R. Fitzgerald,
                                                             Owner.

      Prepared Statement of Michael Gannon, Distinguished Service 
          Professor Emeritus of History, University of Florida

    April 2, 2013 will be an historical date of major national 
significance. It was on April 2, five hundred years before, that 
Europeans first sighted and landed on the part of the North American 
continent we call the United States. It was on that distant day, too, 
that the first geographic name of European origin, La Florida, was 
etched upon the maps of our country.
    The expedition that left us this legacy was led by the Spaniard 
Juan Ponce de Leon, lately governor of Puerto Rico. On March 3, 1513, 
Juan Ponce (the short form of his name used by Spanish chroniclers) 
departed Anasco Bay on the western side of Puerto Rico with two 
caravels and a bergantina. In addition to the Spanish crews these 
vessels carried two women, Beatriz and Juana Jiminez, two African 
freemen, Juan Garrido and Juan Gonzalez [Ponce] de Leon, and two 
unnamed native Taino seafarer-guides from Puerto Rico. Florida's 
discoverers were a multi-cultural body.
    Juan Ponce's intended destination was a rumored island to the north 
of Puerto Rico named Bimini. According to legend, the island contained 
a fountain of waters that rejuvenated old men--the so-called ``fountain 
of youth.'' Our source for the legend is a questionable mention of the 
fountain a century later by the historian Antonio de Herrera y 
Tordesillas. Today's historians tend toward the view that the fountain 
was probably a gloss by Herrera, particularly given the fact that Juan 
Ponce's asiento, or charter, from King Fernando II authorizing his 
voyage, which was meticulously detailed in its specification of the 
expedition's purpose and goals, nowhere mentions such waters.
    Juan Ponce encountered the Florida peninsula by accident. Sailing 
through the chain of Bahama Islands, he was swept westward by winds and 
currents through the New Providence Channel and into the Florida 
Current, popularly called the Gulf Stream. Bearing westward as best he 
could, he was shouldered to the north by the three-knot current until 
he made a landfall just south of Cape Canaveral, probably at or near 
Melbourne Beach, where his tiny fleet anchored in forty-four feet of 
water.
    From Herrera's redaction of Juan Ponce's log we learn what 
followed: ``And thinking that this land was an island, they called it 
La Florida [the flowery land], because it was very pretty to behold 
with many and refreshing trees, and it was flat and even; and also 
because they discovered it in the time of Flowery Easter [Pascua 
Florida], Juan Ponce wanted to give the land this name.''
    After remaining in the region for six days, the expedition sailed 
south against the Gulf Stream, Juan Ponce's second great discovery, in 
an effort to circumnavigate the ``island.'' In so doing he gave us 
seven more geographic names: Cabo de las Corrientes (Cape of the 
Currents, for a cape north of Lake Worth Inlet); La Cruz (The Cross), 
for Jupiter River; Santa Marta (Saint Martha) for Key Biscayne; Pola 
(meaning unknown), for one of the keys; Los Martires (Martyrs), for the 
entire chain of keys; Matanzas (Massacre), for Sanibel Island, where 
his party was attacked by Calusa natives; and Las Tortugas (Turtles), 
for the Dry Tortugas. Sanibel was the farthest north Juan Ponce 
ventured on the Gulf Coast before shaping course home to Puerto Rico.
    Unlike some of the would-be conquistadors who followed him to 
Florida, Juan Ponce did not of his own design employ violence against 
the native populations, though he himself was assaulted three times by 
clubs and arrows, near Lake Worth Inlet, at Jupiter Inlet, and at 
Sanibel. Of the first encounter Herrera wrote that Juan Ponce did not 
wish to do the natives harm but was forced to fight in order to save 
both his men's lives and their boat, oars, and weapons.
    Delayed by family responsibilities, Juan Ponce did not return to 
Florida until winter 1521, when he arrived on the lower Gulf Coast, 
probably in the region of San Carlos Bay, with 200 male and female 
settlers, parish priests and missionary friars, horses and domestic 
animals, seeds, cuttings, and agricultural implements. The composition 
of this expedition indicates that he intended to build a permanent town 
and develop farmland. The presence of parish priests indicates that his 
settlement conducted the first Christian service (Mass) in North 
America north of Mexico. The presence of missionary friars indicates 
that he intended to approach the native peoples in a peaceful way, 
imparting to them the basic teachings of Judaeo-Christian religion, as 
well as the rudiments of European arts and crafts, as was done later in 
the Franciscan Florida missions of the 16th and 17th centuries. But 
such was not to be.
    Natives at the site attacked the Spaniards as they debarked, as 
they erected their buildings, and as they planted their crops and 
tended their cattle. When Juan Ponce himself received a painful, 
suppurating wound in a thigh, he ordered abandonment of the colony. The 
Spaniards sailed to Cuba where Juan Ponce could receive medical 
treatment, but shortly after arriving there he died from his infection.
    To the natives it was the invaders who were the infidels. And this 
was still their land.
    The effects of Juan Ponce's discovery and enterprise were far-
reaching. Over the following forty-four years, six more Spanish 
expeditions came to La Florida, including that of Pedro Menendez de 
Aviles, who in 1565 established St. Augustine, which proudly bears the 
title of first permanent European settlement in North America north of 
Mexico. By a half century after Juan Ponce's exploits, his appellation 
La Florida was applied by Spain to the entire seaboard from the Florida 
Keys to Newfoundland, and westward indefinitely from the Atlantic.
    It is altogether fitting and proper that the name of our country's 
First Discoverer should be writ large in the chronicles about early 
America, and that it should be celebrated by the entire nation in the 
years leading up to and including the Quincentenary Year of 2013.
    I strongly support the establishment of a National Commission on 
the Quincentenary of the Discovery of Florida by Ponce de Leon. And I 
particularly endorse the Senate's support of scholarly research, 
publications, lectures, conferences, and media presentations that will 
acquaint the American people with their largely unknown Hispanic 
heritage.


</pre></body></html>
